<html>
<title> - [H.A.S.C. No. 111-164]DEVELOPMENTS IN SECURITY AND STABILITY IN AFGHANISTAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 111-164]
 
         DEVELOPMENTS IN SECURITY AND STABILITY IN AFGHANISTAN

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                              MAY 5, 2010


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
63-158                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
JOE SESTAK, Pennsylvania             DUNCAN HUNTER, California
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
NIKI TSONGAS, Massachusetts          MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
LARRY KISSELL, North Carolina        CHARLES K. DJOU, Hawaii
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
JOHN GARAMENDI, California
MARK S. CRITZ, Pennsylvania
LEONARD L. BOSWELL, Iowa
DAN BOREN, Oklahoma
HANK JOHNSON, Georgia
                     Paul Arcangeli, Staff Director
                 Mike Casey, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, May 5, 2010, Developments in Security and Stability in 
  Afghanistan....................................................     1

Appendix:

Wednesday, May 5, 2010...........................................    43
                              ----------                              

                         WEDNESDAY, MAY 5, 2010
         DEVELOPMENTS IN SECURITY AND STABILITY IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Flournoy, Hon. Michele P., Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     4
Paxton, Lt. Gen. John M., Jr., USMC, Director for Operations, J-
  3, Joint Chiefs of Staff.......................................     7

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele P., joint with Lt. Gen. John M. 
      Paxton, Jr.................................................    52
    McKeon, Hon. Howard P. ``Buck''..............................    49
    Skelton, Hon. Ike............................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

         DEVELOPMENTS IN SECURITY AND STABILITY IN AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Wednesday, May 5, 2010.
    The committee met, pursuant to call, at 10:09 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Our committee meets today to 
receive testimony on developments in security and stability in 
the country of Afghanistan. Witnesses, old friends, and thank 
you for coming back: The Honorable Michele Flournoy, Under 
Secretary of Defense for Policy; Lieutenant General John 
Paxton, the Director for Operations on the Joint Staff. And we 
appreciate your coming back so soon with us.
    Six months ago our President announced the results of a 
comprehensive review of our policy in Afghanistan, which for 
many years had essentially been nonexistent. During this 
announcement he endorsed a new counterinsurgency [COIN] 
strategy centered on increasing U.S. forces by 30,000 troops, 
adding U.S. civilian experts, and focusing on protecting the 
population of Afghanistan from the Taliban and their terrorist 
allies. I endorsed this strategy then, and I do so now. As I 
have said many times, while this new strategy cannot guarantee 
success in Afghanistan, it is most likely to end with an 
Afghanistan that can prevent the return of the Taliban and 
their Al Qaeda terrorist allies.
    Six months into the new policy, it is appropriate for 
Congress to consider how things are going. About 21,000 of the 
30,000 troops have arrived in that country, and many have been 
involved in the recent successful military operation around 
Marja. Others will soon begin restoring security in Kandahar, 
an operation that is likely to be crucial to our overall 
success in that country.
    We have seen other clear signs of success in our fight 
against terrorists. The President's new strategy helped lead to 
the capture of the Taliban's second in command, the former 
Taliban finance minister, and two so-called shadow governors of 
Afghan provinces, the most significant captures of Afghan 
Taliban leaders since the start of the war in Afghanistan.
    Now, while I am pleased with the recent successes in 
Afghanistan, I anticipate others, many concerns remain. 
Although we successfully cleared Marja, the Taliban still 
appears to be able to infiltrate the town and threaten and kill 
those who cooperate with American and Afghan security forces. 
This may not be unanticipated. It takes time to build the 
confidence of a local population. But I worry that some of this 
may point to the weakness of the local government which cannot 
easily deliver the services and cannot deliver the governance 
needed to help convince the residents of Marja to join the 
right side.
    Now, while we have increased forces in Afghanistan, our 
allies have also begun to send additional troops. To date, they 
have added about 50 percent of the 9,000 new troops they 
pledged after President Obama's December speech. But serious 
concerns remain about our ability to train the Afghan security 
forces, who will have to assume the burden of providing 
security and combating terrorism in Afghanistan without more 
international trainers. I am pleased that Secretary Gates has 
decided to send additional U.S. military personnel to fill this 
gap, but this is a short-term solution and is not a long-term 
fix.
    This concern relates to another. In a recent meeting, NATO 
[the North Atlantic Treaty Organization] endorsed a process to 
transition the lead force security to, in some districts, from 
U.S. and allied troops to Afghan National Security Forces 
[ANSF]. I think all of us would like to know more about this 
process as well as its implications.
    What progress do we have to see in a district before we can 
transition to Afghan lead? And what does this mean for 
international troops in that district? Are we talking about 
progress among the Afghan security forces, or must the district 
also need a competent and honest government?
    Finally, a quick word of congratulations and one of 
caution. The Department of Defense [DOD] recently delivered a 
very good and on-time report on progress toward security and 
stability in Afghanistan. Thank you for that. Unfortunately, a 
similar, somewhat higher-level metrics report filed by the 
National Security Council [NSC] was very disappointing. It is 
my hope that future reports more closely resemble the 1230 
report and provide real information. Congress cannot judge 
progress from glorified press releases.
    Again, thank you for coming before us today. I suspect this 
will not be the last hearing on Afghanistan this committee will 
hold this year. I appreciate you working with us to ensure that 
Congress can conduct its constitutional and appropriate 
oversight activities. We are very pleased with your work and 
very pleased with your appearance.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 47.]
    The Chairman. And now for my good friend, the ranking 
member, the gentleman from California, Buck McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing on Afghanistan.
    I would also like to welcome back Under Secretary of 
Defense Michele Flournoy and Lieutenant General John Paxton. I 
look forward to your testimonies.
    We are a nation at war. The attempted terrorist attack in 
New York City's Times Square serves as the most recent reminder 
that we face dangerous enemies who threaten the safety and 
security of our country. The extraordinary men and women of our 
military and their families need no reminding of this threat. 
They know all too well the sacrifices and dedication it takes 
to keep this fight off our shores.
    A lot has happened since the President stood before the 
American people and made the case for his Afghanistan-Pakistan 
strategy. Over half of the 30,000 forces authorized by the 
President have arrived in country and are conducting operations 
in southern Afghanistan. They are operating with some 
constraints, both political and operational, and this is where 
I would like to focus the remainder of my comments and 
questions.
    In my view, this body, no matter on which side of the aisle 
you reside, and this committee in particular, has the moral 
responsibility to ensure that this war is not fought with a 
minimalist mindset or with an eye toward the Washington 
political clock.
    Nearly 18 months ago, Admiral Mike Mullen told this 
committee, and I quote, ``In Afghanistan, we do what we can. In 
Iraq, we do what we must.''
    When it comes to resourcing our efforts in Afghanistan, I 
remain concerned that we are not doing everything that we must 
in order to ensure that General McChrystal and his commanders 
on the battlefield have the time, space, and resources they 
need to succeed.
    Let me be clear. I have the utmost confidence that General 
McChrystal and his troops will get the job done. My concern is 
that the minimalist approach being advocated from some in 
Washington raises the risk and increases casualties. The 30,000 
troop cap put in place by this Administration is sending the 
wrong signal to our commanders and forcing military planners to 
make difficult trade-off decisions between combat troops and 
key enablers. I am particularly concerned that we are 
underresourcing force protection capabilities.
    It is my understanding that there continues to be a serious 
indirect fire threat to U.S. and coalition forward-operating 
bases [FOBs] in Afghanistan, yet the current force protection 
systems that protect FOBs in Iraq are not deployed to protect 
FOBs in Afghanistan. This is disconcerting, especially given 
the fact that we have evidence that such capabilities have 
saved hundreds of lives in Iraq.
    Today I would like our witnesses to explain what 
modifications have been made to the original Joint Urgent 
Operational Need [JUON] for sense, warn, and response 
capability in Operation Enduring Freedom [OEF] and why these 
changes were made. Why are we addressing this particular force 
protection shortfall differently in Afghanistan than in Iraq? 
Specifically, why are we deploying contractors instead of 
military personnel? It is my understanding that if we had used 
military personnel like we did in Iraq, this capability would 
already be over in Afghanistan protecting lives.
    While I have focused on the impact of the troop cap on the 
fielding of certain key enablers, this cap becomes more 
problematic when you consider that some of our NATO allies are 
not meeting their commitments, and others will be withdrawing 
their forces from southern Afghanistan.
    Further, as Admiral Mullen's comments suggest, there was a 
time when many thought of the two wars as a struggle for 
resources resulting in the haves and have-nots. Iraq was the 
haves, and Afghanistan was the have-nots. My suspicion is that 
the mentality of the have-nots may be impacting how commanders 
are employing the resources that they do have in Afghanistan. 
For example, in Iraq, there was a capability called Task Force 
ODIN--Observe, Detect, Identify and Neutralize. This task force 
was responsible for killing or capturing over 3,000 insurgents 
as they were trying to put in IEDs, basically turning the IED 
emplacer into a suicide mission.
    In Afghanistan, they are standing up a similar Task Force 
ODIN capability; however, it is my understanding that this 
capability is being used differently than it was in Iraq. 
Instead of being used to specifically go after IED emplacers, 
it is being incorporated into the big picture ISR requirement. 
I am unclear if this is a tactical decision or the result of 
the signaling from Washington to operate under the ceilings you 
have been given.
    Lastly, I have raised concerns that the emphasis in our 
strategy appears to be on ending the conflict rather than 
winning. I wish the President would use words like ``victory'' 
rather than ``transition'' and ``redeployment.''
    This morning I hope to get a better understanding on what 
transition actually means. How do you explain the transition to 
the Afghans, to the enemy, and to our forces on the ground?
    Mr. Chairman, I ask that my entire statement be included 
for the record where I address other concerns and questions.
    The Chairman. Certainly. I thank the gentleman.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 49.]
    The Chairman. Secretary Flournoy, please.

 STATEMENTS OF MICHELE P. FLOURNOY, UNDER SECRETARY OF DEFENSE 
             FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Chairman Skelton, Congressman McKeon, 
distinguished members of the committee, it is good to see you 
all again. Thank you for inviting us here to testify on our 
ongoing efforts in Afghanistan.
    As you know, the Administration's core goal in the region 
is to disrupt, dismantle, and defeat Al Qaeda and ensure the 
elimination of Al Qaeda safe havens. A critical component of 
our strategy is a stable Afghanistan with the governance and 
capacity to ensure that Afghanistan can no longer be a safe 
haven for Al Qaeda and insurgents.
    The U.S. and Afghanistan also have shared interests that 
extend far beyond combating violent extremism, and we are 
working to develop an enduring partnership that will serve both 
our nations for many years to come.
    When I last testified before you on Afghanistan, we faced a 
pretty bleak situation. Early coalition gains had eroded, the 
Taliban was reascendant, and Afghan confidence in the coalition 
was in decline. President Obama ordered an immediate strategy 
review when he came into office and added 38,000 troops in the 
spring of 2009. After General McChrystal's assessment last 
summer and further review, the President decided to deploy an 
additional 30,000 troops in December of last year. Today over 
half of these forces have already deployed, and almost all of 
them will be in place by the end of August. More than 9,000 
international troops have also been pledged. ISAF 
[International Security Assistance Force] is now focused on 
protecting the Afghan population and partnering with the Afghan 
National Security Forces [ANSF] to build their capacity to 
conduct and lead security operations.
    The civilian surge is also moving forward. We now have 
three times as many U.S. Government civilians in Kabul as we 
had a year ago and over four times as many civilians outside of 
Kabul.
    The evidence suggests that our shift in approach is 
beginning to produce results. The insurgency is losing 
momentum. And though real challenges and risks remain, we see a 
number of positive trends. Let me highlight a few.
    As you know, we are executing our strategy in close 
cooperation with the Afghan Government, with our coalition 
allies and other partners in the region, particularly Pakistan. 
Our consultations with partners have led to a much greater 
sense of unity of effort and a common strategy. Also, changes 
in coalition tactics have substantially reduced the percentage 
of Afghan civilian casualties caused by coalition actions to 
about 20 percent. This has, in turn, produced significant 
positive shifts in Afghan attitudes towards both ISAF and 
Afghan forces.
    Building the capacity of the Afghan National Security 
Forces remains a significant challenge, but there are signs of 
progress. Currently the Afghan National Army [ANA] strength is 
well above our April target, and the Afghan National Police 
[ANP] are well on their way to achieving their growth goals for 
this fiscal year.
    That said, we continue to face challenges associated with 
recruiting, training, retention, and attrition in the ANSF, 
particularly the police. ISAF has intensified its partnering 
with the ANSF at all levels, from the ministry down to local 
units, but shortages of trainers and mentors persist. The 
Afghan Government has undertaken a number of initiatives to 
address these issues, including raising the salaries of ANSF, 
equalizing pay disparities between the army and police, 
improving the quality of life and training for police, and 
beginning to address corruption. There is, however, much more 
work to be done to develop commensurate rule-of-law structures.
    More broadly, our emphasis on using development assistance 
to support sustainable governance similarly appears to be 
paying off. In cleared areas such as the Arghandab Valley in 
Regional Command South [RC-South], the conditions for 
implementing governance and development programs at the 
district level are being created, and we are seeing 
international and Afghan actors, both military and civilian, 
working together to effectively empower and legitimize the 
Afghan Government at the local level.
    Despite challenges like corruption, polls suggest that a 
majority of Afghans, about 59 percent, believe their government 
is headed in the right direction. We have also seen some 
positive steps taken by the Karzai government at the national 
level. For instance, President Karzai recently issued interim 
guidance for the execution of reintegration programs. He will 
issue final guidance after the Consultative Peace Jirga later 
this month, and we expect to be able to support the Afghan 
Reintegration Program Authority by releasing funds authorized 
by this committee and the Congress in the fiscal year 2010 NDAA 
[National Defense Authorization Act].
    President Karzai and members of his cabinet, as you know, 
will be visiting Washington next week and will highlight the 
continuing support among Afghans for our involvement there and 
the Afghan appreciation for the sacrifices being made by U.S. 
troops and civilians. During President Karzai's visit we also 
expect to discuss the nature of our long-term strategic 
partnership between the U.S. and Afghanistan, including longer-
term economic development, security cooperation, and 
cooperation in areas such as law enforcement, judicial reform, 
and educational programs.
    As you know, our military operations in Helmand continue, 
and we are also engaged in planning and shaping efforts for 
future efforts in Kandahar. I will leave the specifics of that 
to Lieutenant General Paxton, but I do want to emphasize that 
for ISAF and for our Afghan partners, the Helmand operation was 
our first large-scale effort to fundamentally change how we are 
doing business together. In Helmand, protecting the population 
has been our top priority along with ensuring that our military 
operations pave the way for Afghan-led governance and 
development activities.
    Preparation for the Helmand operation included 
extraordinary levels of civil-military planning and engagement 
with Afghan partners at every level, and we feel that the 
collaborative operational planning process was critical to 
giving Afghans a sense of ownership and investment in the 
success of our joint efforts.
    I don't want to suggest that achieving success in 
Afghanistan will be simple or easy. Far from it. Kandahar, for 
example, will present challenges that are fundamentally 
different from those that we have recently encountered in 
Helmand. Inevitably we will face challenges, possibly setbacks, 
even as we achieve successes. We need to recognize that things 
may even get harder before they get better. We are challenging 
our adversaries in new ways, and the insurgents are intelligent 
and adaptable. They will find new ways to respond. And to 
maintain our momentum, we will need to continuously refine and 
adapt our own tactics. But at this point I am cautiously 
optimistic. I believe that we are developing the conditions 
that are necessary, though not yet sufficient, for success.
    We finally--and I would argue for the first time--we 
finally have the right mission, the right strategy, the right 
leadership team in place, and we have marshaled both the 
international and Afghan resources, civilian and military, to 
support this mission. Afghanistan is our number one priority. 
General McChrystal knows that he can ask for what he needs. The 
President has given the Secretary of Defense the flexibility to 
provide for additional forces, particularly for force 
protection as needed.
    As we move forward, we will continue to refine our 
approach, and I believe we will continue to make progress.
    I want to thank this committee for the support you have 
provided to our troops and to this mission thus far. I would 
urge you to continue that support in considering our current 
budget requests that are before you. And I know that General 
Paxton will address operational matters in greater detail, and 
we look forward to your questions and comments. Thank you.
    The Chairman. Thank you so much.
    [The joint prepared statement of Secretary Flournoy and 
General Paxton can be found in the Appendix on page 52.]
    The Chairman. General Paxton.

  STATEMENT OF LIEUTENANT GENERAL JOHN M. PAXTON, JR., USMC, 
      DIRECTOR FOR OPERATIONS, J-3, JOINT CHIEFS OF STAFF

    General Paxton. Good morning, Chairman Skelton, Ranking 
Member McKeon and distinguished members of the committee. Thank 
you again for your time today.
    This morning I would like to briefly provide an overview of 
military ops [operations] in Afghanistan. As Secretary Flournoy 
pointed out, we are starting to see conditions that we believe 
are necessary for success in Afghanistan. Among the most 
important of these conditions is having the right leadership 
and strategy in place.
    In 2009, after assuming command of ISAF, General McChrystal 
conducted an assessment of the situation in Afghanistan. He 
developed a campaign plan that was designed to provide a secure 
environment that would enable an improved governance and 
development within Afghanistan. At the heart of that campaign 
plan are four requirements: to protect the Afghan people, to 
enable Afghan security forces, to neutralize malign influences, 
and to support the extension of governance. General McChrystal 
has gone to great lengths to ensure that all of our operations 
in Afghanistan are directly tied to achieving these aims.
    The central tenet of our campaign strategy is to protect 
the populace. We are fulfilling this tenet by prioritizing our 
efforts to provide security and to extend governance in high-
density population areas where the insurgent groups currently 
operate, and by reducing civilian casualties. The reduction of 
civilian casualties is another key component of our efforts to 
protect the people in Afghanistan. General McChrystal has 
repeatedly emphasized this point at every opportunity. In fact, 
our own force protection is closely related to gaining the 
respect and support of the Afghan people.
    IEDs [Improvised Explosive Devices] remain our number one 
killer in Afghanistan, accounting for 60 percent of our total 
casualties. In some areas over 80 percent of our IED 
discoveries have been a direct result of tips from local 
nationals. We are convinced these tips are a result of the 
relationships that we are building on a daily basis with the 
local population and the protection that we are providing. 
Clearly, the support of the people of Afghanistan is essential 
and relates directly to our own safety.
    Regional Command-South is currently where the main effort 
of operations is in Afghanistan. We are expanding security 
zones, enhancing freedom of movement, and increasing the 
confidence of our Afghan National Security Forces and partners 
by the growth of our embedded partnering concept.
    The real prize in the south is the key city of Kandahar and 
its environs. Kandahar City is of huge importance nationally 
and is the capital of the south. It has the rich culture and 
history, and is the key economic and trading hub, and is of 
great importance to the Taliban movement, which originated 
right in Kandahar. The insurgents have a degree of freedom, as 
recent suicide bombings have demonstrated, and the local police 
lack sufficient forces to prevent insurgent activity, while 
government also lacks the capacity, credibility, and resources 
to operate effectively. The people of Kandahar are caught in 
the middle of this confrontation, and they demand better 
security, economic development, and a government that is in 
touch with and responsive to their needs.
    Our operation in Kandahar is named Hamkari, which in Dari 
means cooperation. It has been planned and will be conducted 
with our Afghan partners in the lead for operations. The focus 
of Hamkari is on providing Kandahar with credible and effective 
governance that gives the population hope for the future. More 
effective government will deliver security, basic services, 
development, and employment. If these ends are achieved, the 
people of Kandahar will reject the insurgency and support the 
government.
    The plans for Hamkari were approved by the President of 
Afghanistan on 4 April when he visited the city. In time it 
will deliver the security that the people of Kandahar desire 
and will drive the insurgents from the city and the outlying 
districts by steadily restricting their freedom to operate. A 
more capable, representative and responsive government will be 
able to bring the economic development and rule of law that the 
area so badly needs.
    Hamkari is not about highly kinetic military operations. It 
is about applying the combined resources of the Afghan National 
Army, the Afghan National Police, and ISAF in support of the 
governor to improve security both in the city and in the 
populated environs. Hamkari will bring the government and the 
people closer together to make for a better future for 
Kandahar.
    Our recent clearing operations by the Afghan National 
Security Forces, the Marines, and the British in Marja and Nad 
Ali, Operation Moshtarak, were, in fact, shaping operations for 
this upcoming event and the operations in and around Kandahar.
    There are several significant differences between Hamkari 
and the Operation Moshtarak in Marja. For a start, the physical 
size and the size of the population are much greater in 
Kandahar than they were in Marja. In Marja and Nad Ali, ISAF 
forces relied heavily on kinetic operations to clear the 
insurgents from the populated area. In Kandahar, as General 
McChrystal has recently indicated, and I quote, there won't be 
a D-Day that is climactic. Instead there will be a rising tide 
of security for the local population.
    Our current assessment is the positive trends in a number 
of areas such as ANSF growth and improved security, governance, 
and development in central Helmand are a result of recent 
operations and indicate that our campaign is on track and 
moving in the right direction. Previously declining security 
trends in some areas of the country have been arrested, while 
trends elsewhere have been starting to advance in a positive 
direction. Current trends remain tenuous until more permanent 
and effective governance is established in the areas being 
secured. Enduring stability is dependent on Government of 
Afghanistan's ability to deliver credible local governance and 
essential services and to expand economic opportunities for its 
people.
    Real progress will be confirmed only when the Afghan people 
believe that lasting security and stability has been 
established in their areas, and this will take time. People's 
perceptions typically change more slowly and lag behind many of 
the actions that are actually improving the conditions on the 
ground.
    As I conclude my remarks, I would, as did Secretary 
Flournoy, caution everyone that in spite of recent successes in 
central Helmand, we shouldn't underestimate the challenges that 
lie before us or that underplay the need for resolve in the 
days ahead because we continue to fight an intelligent and 
adaptable enemy.
    I thank you for your time this morning, and, more 
importantly, I thank you for your continued support of our 
troops, their families and our mission. I look forward to your 
questions. Thank you.
    [The joint prepared statement of General Paxton and 
Secretary Flournoy can be found in the Appendix on page 52.]
    The Chairman. Thank you very much and again we appreciate 
your being with us and your excellent assessment.
    Both of you, come with me in your mind's eye, my hometown 
of Lexington, and early in the morning go to a local coffee 
shop, and there are seven or eight of my gentlemen friends 
sitting around drinking coffee and talking about football games 
and the baseball games that are coming up, and I introduce you. 
Most of them are veterans of Vietnam or Korea. And one of them 
turns to you and says, are we achieving success in Afghanistan? 
Another one turns to you and says, when do we declare victory 
in Afghanistan? And I step back, and I let you answer the 
questions.
    Madam Secretary, two questions.
    Secretary Flournoy. Chairman Skelton, I believe we are 
achieving success. We are on the right road for the first time 
in a long time in Afghanistan. So that is the assessment of 
General McChrystal that we hear weekly in our conversations 
with him. It is the assessment of our U.S. Government team on 
the ground.
    Are we done yet? Absolutely not. Are there more challenges 
to be dealt with? Yes. But we are on the right path, and things 
are starting to move in the right direction.
    In terms of how we define victory, I think that victory is 
a----
    The Chairman. I didn't say define it. The question was----
    Secretary Flournoy. I am sorry, when is victory.
    The Chairman. My friend didn't ask you to define it. He 
asked are we achieving it?
    Secretary Flournoy. I think when is victory is based on 
achieving certain conditions, and that, to me, is making sure 
that Afghanistan, the Government of Afghanistan, has the 
capacity to exert its sovereignty over its territory, to deny 
Al Qaeda and its associates safe haven in the country, and to 
maintain stability so that it can continue to develop on the 
way forward. That is the core--that relates to our core goal 
that we have defined for ourselves in this mission.
    The Chairman. General, two questions.
    General Paxton. Sir, in terms of success, I, too, believe 
that we are achieving success on the ground. The definition of 
success--well, rather than the definition, the indicators of 
success, it is true that the levels of violence are up right 
now in some areas, both the attacks have been up and the IEDs 
in particular are up. But as I noted earlier, what we are 
seeing is in some cases up to 80 percent of the local 
population letting us know where the IEDs [improvised explosive 
devices] are, and that contributed to a reduction in the number 
of casualties and increased operational efficiency in 
Moshtarak, in Nad Ali and in Marja. And it is our expectation 
that as we have better partnering, more partnering, more 
Afghans in the lead in the planning and the execution, that we 
will see those trends continue as we move into Kandahar.
    In terms of victory, I believe that the indicators for 
victory are--there is a lag between the execution and the 
indication, and it is indeed very dependent on the 
demonstration of both capacity and credibility of the Afghan 
people, the security forces and the governance to actually lead 
and provide security and provide opportunities for the people. 
But the more that the polls indicate, as they currently do, 
that they believe in the Afghan National Security Forces, and 
they believe in ISAF, and that they believe our current 
operations are generating the potential for a better life for 
them, then we are on the right road, sir.
    The Chairman. Thank you so much.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    In my opening comments I stated that Admiral Mullen told 
this committee, in Afghanistan we do what we can, in Iraq we do 
what we must, 18 months ago. Actually that statement was made 
December of 2007, so I want to correct that for the record.
    As I stated earlier, I am concerned that the 30,000 troop 
cap for Afghanistan forcing difficult decisions to be made when 
it comes to finding certain key enablers, including force 
protection measures for our forward-operating bases. Do we have 
a troop cap in Afghanistan?
    Secretary Flournoy. Sir, I would tell you we do not have a 
troop cap; 30,000 is the number of forces the President has 
approved. It is not a cap per se.
    General Paxton. Yes, sir. That is based on the assessment 
on the ground, and the assessment is always subject to review 
both by General McChrystal and back here in Washington. And the 
30K that people commonly refer to is just one component, sir, 
because we have an additional 9- to 10,000 of NATO [North 
Atlantic Treaty Organization] forces, and then we have what is 
now en route to 134 Afghan National Army [ANA] and up to 170-
some Afghan National Police [ANP]. So you have to look at the 
composite mix of all of those security forces, and we are 
trying to strike the right balance between U.S., coalition 
force and local/national, sir.
    Mr. McKeon. So you feel there is no cap, and General 
McChrystal can call on all the resources he felt he needed?
    General Paxton. Indeed he has, sir. He has come back to ask 
for more and ask for different, and it is a constant series of 
assessments that I personally get involved with on a weekly 
basis to take a look at the flow of forces and what should go 
next and what should go in addition to.
    Mr. McKeon. Let me talk a little bit about the enablers in 
Iraq versus Afghanistan. Can you answer the following: Are we 
addressing force protection on our FOBs [forward operating 
bases] differently in Afghanistan than Iraq? And if yes, why 
are we deploying contractors instead of military personnel?
    General Paxton. Sir, our analysis and assessment of force 
protection is no different regardless of the theater. And you 
strike the balance between the threat of direct fire, indirect 
fire, aviation missile, and you take a look about the 
appropriate indications and warnings you would need to identify 
where that threat would come from.
    I would tell you that as we look to increase our footprint 
and our boots-on-the-ground presence in Afghanistan, we also 
look to bring in all what we commonly call the enablers that 
you need to have to provide that force protection. So 
additional military police, additional combat engineers, 
additional route clearance, and part and parcel of that package 
thanks to the good efforts of this committee and the funding 
has been our elevated line of sight, which is our persistent 
ground surveillance, some of it on camera and on elevating 
telescopic poles from the vehicles, some of it tethered 
balloons, some of it manned, some of it unmanned. So all of our 
ISR [intelligence, surveillance, and reconnaissance] Task Force 
capabilities indeed provide us the eyes and ears that we need 
to sense the environs there.
    And if you look at the source of the fires and the 
casualties, the indirect fire in Afghanistan is not what it was 
in Iraq. It is the IEDs that is the largest component first, 
and then the small-arms fire and things like rocket-propelled 
grenades second. So it is not the indirect fire. But the 
assessment process in Iraq and Afghanistan are identical, sir.
    Mr. McKeon. General, why are we not employing Task Force 
ODIN [Observe, Detect, Identify, Neutralize] in Afghanistan the 
same way we did in Iraq? Or are you saying we did? When I look 
at the breakdown of ISR for Army direct support assets alone, 
specifically Hunter, Shadow and the ERMP [Extended Range Multi-
Purpose UAVs] in Iraq, they have approximately 80 UAVs 
[unmanned aerial vehicles] in Iraq; they have about 50 in 
Afghanistan.
    General Paxton. Again, sir, I think the capabilities that 
we bring and the way that we employ the capabilities are the 
same in Afghanistan as they are in Iraq. We have our ISR Task 
Force here, which is pushing all those assets forward, again 
manned and unmanned. We have our Task Force Paladin, which is 
like Task Force Troy, which is our IED over there, and we are 
looking to get both full-motion video and then manned and 
unmanned aerial vehicles up there so that we can detect 
movement of the enemy and movement of perhaps sympathetic local 
nationals that may be either scouting for them or putting in 
IEDs. So I think our capability is there.
    And as I mentioned a minute ago, some of this is just the 
lag. As we increase our footprint on the ground, then we are 
surging with them and bringing behind extra eyes and ears that 
will do the exact same things in Afghanistan that ODIN did in 
Iraq.
    Mr. McKeon. Do we have more of these UAVs currently in Iraq 
than in Afghanistan?
    General Paxton. If I could take that for the record and get 
back with you, sir, because we are drawing down, obviously, in 
Iraq. We are trying to keep a sufficient amount there to cover 
what will become our six Advise and Assist Brigades that stay 
behind. And there is a difference in the geometry of the 
battlefield.
    Some folks would believe that as you draw down the boots on 
the ground, you can draw down all the extra enablers, and that 
may not be the case. I think, as General Odierno and General 
Petraeus have articulated, that you still need extra eyes and 
ears out there because you don't have the physical presence on 
the ground. So we are trying to strike the balance between how 
quickly we can draw down in Iraq and how much we have built up 
in Afghanistan. Some of it is transitional forces from one 
theater to the other. In other cases, we need them in both. So 
we are procuring more, as I said, thanks to the efforts of the 
committee here, to go out and buy more full-motion video and 
Electro Optical and IR [Infrared] [EO/IR] and different things 
like that, sir.
    Mr. McKeon. It just seems to me in Iraq, where we have 
pulled the troops out of the cities, and there are more in 
reserve positions--right now we are in Afghanistan, we are on 
the offense. It seemed like to me, now--I am not a military 
expert such as General Petraeus, General McChrystal, yourself, 
but I would like to see those numbers because it seems to me 
that more of those enablers, in my humble opinion, should be 
where we are on the offense and where we have more troops 
actually in the line of fire right now.
    General Paxton. Yes, sir. And I take that for the record, 
certainly get you the numbers, sir, and then the actual 
discussion of how many and where they go we could certainly do 
in closed session if you would like to do that, sir.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Thank you very much.
    Mr. McKeon. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman, Secretary Flournoy and 
General Paxton. Thank you so much for being here and providing 
your thoughts on security and stability of Afghanistan.
    A few days ago it was announced that the United States 
would be sending an additional 850 soldiers and marines to 
train the local security forces in Afghanistan for 
approximately 90 to 120 days. These trainers are seen as a 
stopgap, yet there is still a shortage of trainers conducting 
this critical mission.
    If the way ahead in Afghanistan is to have capable local 
security forces, what is needed to fill this critical shortage 
of trainers? I think this is one of the big problems that we 
have. And how are our allies contributing to fill these 
critical shortages? And how will this shortage of trainers 
affect the handover to local forces? Maybe you can enlighten us 
a little bit on that.
    Secretary Flournoy. I think the institutional trainers for 
the Afghan National Security Forces, and then having mentoring 
teams, what we call OMLTs [Operational Mentor and Liaison 
Teams], for the ANA and POMLTs [Police Operational Mentor and 
Liaison Teams] for the ANP out in the field to continue that 
training and leadership development as they actually operate, 
that really is the sort of long pole in the tent of our future 
success. This is absolutely critical to building capacity.
    We have--as we seek to grow the ANSF [Afghan National 
Security Forces] and improve its quality, the requirements for 
those training, that training capacity has gone up. We have 
been pushing our allies to step up with us to meet those new 
requirements, and many of them are doing so. It remains a work 
in progress. We have not--we have made progress towards that 
goal. General Paxton may have some of the specific numbers. But 
we are not all the way there yet.
    The deployment of U.S. forces as a bridge is simply to try 
to meet some of the near-term requirements as we continue to 
recruit our NATO allies to step up with additional trainers, 
but we don't want to lose time, so we wanted to go ahead and 
plug the near-term gap, get General Caldwell, who is the head 
of NTM-A [NATO Training Mission-Afghanistan] and CSTC-A 
[Combined Security Transition Command-Afghanistan], some 
additional resources to continue the momentum in these very 
important efforts.
    I don't know if you want to add any comments, General.
    General Paxton. Thank you, ma'am.
    Yes, sir. Obviously the training of the police and the 
Afghan National Army are critical functions--not just critical 
enablers, but critical functions--that we have to accomplish. 
So General Caldwell is over there with a NATO training mission, 
formerly CSTC-A, and we have sent additional U.S. forces over 
to assist him, almost two brigade combat teams' worth, to do 
training for the army and the police.
    NATO has contributions. They have had almost 3- to 4,000 
more since the President's announcement in December. But we 
would like to get additional NATO contributions there, and if 
some of the NATO members perhaps relook at their combat 
footprint, we are looking to see if they can change those into 
trainers and enablers.
    So what we have done and what your comment reflects, sir, 
is the fact that in the short term we still have a pressing 
need for trainers, and we are waiting for long term solutions. 
So we have sent an Army battalion and three increments of 
Marines over there to fill that gap in the short term, sir.
    Mr. Ortiz. I know that sometime back we had a high ratio of 
AWOLs [Absent Without Leave]. Has that gone down some? Are we 
still having those same problems we had before where they just 
wouldn't come in?
    General Paxton. Sir, there has been a marked change since 
December in terms of both their absenteeism, which has gone 
down, and then their reenlistment and retention rate, which has 
gone up. So it is not only in the short term in terms of 
showing up for duty, but it is in the long term in terms of 
their commitment. Some of this is due to success on the ground; 
some of it is due to change in their pay structure. But we 
believe these are both good news stories, sir.
    Mr. Ortiz. It is encouraging to see that we are beginning 
to get tips from the local citizens as to where to locate some 
of the IEDs and stuff. What about the training camps? Do we 
have any knowledge? Are we getting any tips on the training 
camps? Because we see that, just like the other day, a 
naturalized citizen from the United States goes down there to 
train. Is that hard to detect the training camp where they are 
conducting some of this training, the enemy?
    General Paxton. I don't have some of the tactical specifics 
at my fingertips, sir, but obviously it is--I mean, these are 
safe havens and sanctuaries, and sometimes they are indeed 
difficult to find. The more that you build confidence in the 
local populace, and the more that they tell you routes that you 
have freedom of movement on or areas where you should not go, 
or they help you detect IEDs, eventually you get to the point 
where you can say, well, who lives in this neighborhood? And 
they will take you to other areas, sir. So we watch it very 
closely, sir.
    Mr. Ortiz. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Maryland, Mr. Bartlett, please.
    Mr. Bartlett. Thank you very much.
    I want to return for a moment to the chairman's coffee shop 
and to other coffee shops across the country where two other 
questions are being asked. The first is why is not this 
Afghanistan war the ultimate exercise in futility? Because even 
if we do what no one else has ever done, from Alexander the 
Great, the British Empire, the Soviet Empire, even if we could 
accomplish what none of them have ever accomplished, it won't 
make any difference, they say, because the bad guys will simply 
go into Pakistan. And then if we spend I don't know how many 
more billions of dollars and how many more dead kids and 
wounded kids to drive them out of there, they will go to 
Somalia and Yemen.
    They say it is quite clear that we cannot deny them 
sanctuary. So why is this not the ultimate exercise in 
futility?
    It is noted that frequently the citizens there choose the 
harsh rule of the Taliban compared to the corrupt rule of the 
Karzai government, and our very presence there recruits the 
enemy. There were essentially no Al Qaeda in Iraq [AQI] before 
we went there. Then there were a lot of Al Qaeda there after we 
were there. I asked the State Department, were they imported? 
Were they de novo? They said that most of them were, in fact, 
de novo. So our presence there creates the enemy.
    The second question is why are we following Osama bin 
Laden's playbook? This is a hugely asymmetric war, Mohammed 
with a rusty artillery shell and a few dollars' worth of 
electronics. And just one of our responses to that has cost us 
$40 billion. That is MRAPs [Mine Resistant Ambush Protected 
vehicles]. That is just one platform in response to that. Osama 
Bin Laden is on the record as saying that they will continue 
this guerrilla kind of war until they bleed us dry.
    So these two questions, please. Why is this not the 
ultimate exercise in futility? And why are we following Osama 
bin Laden's playbook?
    Secretary Flournoy. Congressman, in response to the first 
question, I would draw a very sharp distinction between the 
historical experience of many in Afghanistan who were there to 
conquer versus our mission in Afghanistan, which is to enable 
the development of Afghan capacity to exert sovereignty over 
their own territory.
    I think your point about Pakistan has informed the fact 
that we have taken a regional strategy. We need to pressure Al 
Qaeda and its associates and deny them safe haven on both sides 
of the border, and that is exactly what our strategy is 
designed to do.
    Support for the Taliban in Afghanistan is quite weak, very 
little popular support, and that creates great opportunity for 
us to help develop Afghan institutions and capacity that are a 
viable alternative for the population.
    And in terms of Osama bin Laden, again, I would just say 
that we don't have the option of allowing Al Qaeda to have 
freedom of movement and sanctuary given the threat that they 
pose to our homeland and to our vital interests abroad. And I 
think that if you look at the totality of our campaign on both 
sides of the Afghan-Pakistan border and globally, we are having 
tremendous success in putting pressure on this network, and 
disrupting their operations, and denying their ability to 
launch spectacular attacks.
    So I think that we have to take a global perspective, and I 
think the strategy is actually bearing a great deal of fruit at 
this point.
    Mr. Bartlett. The questioner notes that in Iraq we actually 
increased the number of the enemy. Our very presence there did 
that, admitted to by the State Department. And assuming success 
in Afghanistan and Pakistan, they will simply go to Somalia and 
Yemen. It is clear that we cannot deny them sanctuary.
    So the question still remains why is this not the ultimate 
exercise in futility, assuming success?
    Secretary Flournoy. Again, sir, I think the facts suggest 
that we are debilitating the network. We are putting pressure 
on the network on a global basis, and that denying them 
sanctuary is critical to preventing their ability to attack our 
homeland and attack our interests and our forces and our allies 
abroad.
    Mr. Bartlett. The second question, why are we following 
Osama bin Laden's playbook in this hugely asymmetric war?
    Secretary Flournoy. Sir, I would differ with you. I don't 
believe we are following his playbook. Actually his playbook 
isn't working so well in terms of advancing Al Qaeda's aims 
right now.
    Mr. Bartlett. Thank you. I yield back.
    The Chairman. I thank the gentleman.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I am going to yield my 
time to Mr. Murphy and claim his later.
    The Chairman. Mr. Murphy is recognized.
    Mr. Murphy of New York. Thank you.
    I wanted to look a little bit for direction of where this 
is all headed. So I was over in Kandahar two months ago on the 
ground talking to some of the people that were there, very 
impressed with our efforts and what we are trying to do to 
stabilize the area and to provide security there. But one of 
the things that really jumped out at me is where does it go 
from there?
    I have no doubt that our soldiers can provide security, 
they can get out on the streets, and they can drive Taliban 
away, but where is the next step? And one that really stuck out 
to me, some of the locals said to me, we don't have any 
reliable electricity, we don't have an economy, we can't run 
our businesses. I can have you meet with 20 local businessmen 
who can't run their factories because there is no electricity. 
And dug a little deeper, what they told me is there are two 
megawatts of power for the whole city of Kandahar. Our base 
needs 10 to 15 megawatts of power and has it to run every day. 
So we are trying to provide security, and we are also at night 
kind of lighting up this boardwalk of Broadway lights, and the 
people are saying, ``We can't get any power, but you guys have 
it over there.''
    Where is the next step? So we provide the security, but 
then what happens to let people start to function in that 
environment to allow us to get away and to go next? And 
specifically do we have a plan for electricity and for the 
local economy there?
    Secretary Flournoy. Sir, I would like to come back for the 
record with a more detailed answer on the specifics of 
electrical power generation for Kandahar.
    My understanding, though, is that is part of the larger 
plan for that area. I think the real shift we have seen coming 
out of the strategy review and putting additional civilian 
resources on the ground alongside our soldiers is that we have 
had much more integrated civil-military planning where we, in 
designing our counterinsurgency [COIN] campaign for an area, we 
are actually harnessing the development piece to support the 
establishment of more credible and capable Afghan Government 
governance at the local and provincial level.
    My understanding is there is--that this is a recognized 
need, that it is part of the longer-term plan for that area, 
but I would like to get back to you on the specific details, if 
I may.
    [The information referred to was not available at the time 
of printing.]
    General Paxton. And, sir, I will join with the Secretary 
and get back with you on specifics.
    [The information referred to was not available at the time 
of printing.]
    General Paxton. What there is, as some of you know, Kajaki 
dam, which is in southern Afghanistan.
    Mr. Murphy of New York. It will be three years before the 
power from that is going to impact this is what I was told.
    General Paxton. I understand, sir, but that is part of the 
long-term plan. As you get the security in the area better and 
the governance up, then we can develop areas like Kajaki.
    Mr. Murphy of New York. So is it three years before we 
think the governance is coming? I mean, before there is 
electricity to have an economy, it is hard to imagine that the 
people are going to start saying, ``Well, this government is 
really working for us.'' So does it mean it is our 
responsibility for that long?
    General Paxton. We have already moved some generator 
capacity into the area, but it is a slow process of actual 
development, and this is what I owe you, the specifics of the 
time line between when we get the generators in, when the 
infrastructure is place, and when the power starts to deliver.
    Mr. Murphy of New York. I use this more as a specific to 
illustrate where I wanted to get to, a bigger point, which was 
what I also heard from all the Afghan ministers was that we 
have a catch-22. They can't get the credibility to build 
popular support behind their government until they can deliver 
for people. We aren't comfortable letting them deliver any of 
the development work until they stop having the corruption 
problems they have because we say, ``We will not give you the 
money to do development because we think you will steal it;'' 
and they say to us, ``That is great, but if you guys are here 
with your military providing security and your development 
folks doing the development, why would anyone turn to us?'' And 
what I heard on the ground is that the order of operations to 
where you turn for help in Kandahar was: one, to NATO; two, to 
your local warlords; three, to the Taliban; and, four, to the 
Afghan Government.
    So what I wanted to understand is how are we going to make 
that transition? How are we going to get to the point where the 
Afghan Government is one on that list and at least two, if not 
three or four?
    Secretary Flournoy. Two points I would make, sir. They are 
very important issues you are raising. One is to make sure that 
the PRTs' [Provincial Reconstruction Teams'] priorities in an 
area are more tightly integrated into the overall civil-
military campaign plan for that area. And I think in Kandahar 
that integration process is starting to happen more than it has 
in the past. So I think you are going to see a realignment of 
some of our development efforts to more closely support the 
security in governance objectives.
    Mr. Murphy of New York. Are we starting to give more of the 
development money to the Afghan Government in the Kandahar 
region?
    Secretary Flournoy. That is the second point. The second 
point is that we are working ministry by ministry to develop 
internal capacity so that they can receive, account for, track, 
and be accountable for flowing money through the ministry. So 
we have set ourselves a series of progressive goals to flow 
more and more assistance through the key Afghan ministries, but 
that requires certifying them to be able to handle that in an 
accountable way. And we are in the process of doing that. I 
think we have done two or three, and we will do another two or 
three in the coming months.
    Mr. Murphy of New York. My time has expired. But if we 
could get the metrics for how that certification, slash, the 
progress works, I am really interested in that because it gets 
to the corruption, and it gets to how we get ourselves out of 
being the ones doing the nation-building and letting the 
Afghans build their own nation.
    The Chairman. I thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, Madam Secretary and General Paxton, thank you for 
being here today.
    And I would like to start my points and also my questions 
by reading an e-mail I got recently from a retired general that 
I have tremendous respect for:
    The only real shot we have at any sort of success is to 
spend years strengthening the Afghan Army and Police; work out 
with Pakistan a way to attack on both sides of the border--in 
parentheses, ``Very tough to do''; get rid of corruption in the 
government--again parentheses, ``Good luck on that front''; do 
something about an economy based on poppy growing--``Not going 
to happen in the Congressman's lifetime''; and do all in our 
power not to drive the Taliban into the arms of local 
population.
    It was a fairly long e-mail that I am not at liberty to say 
his name, but I e-mailed him because I am very concerned about 
rules of engagement [ROE].
    And I had had a conversation with the father of this marine 
who was killed, John Bernard. And ``Caution Killed My Son: 
Marine Families Blast Suicidal Tactics in Afghanistan.'' And 
then I go back to another article in Marine Times: ``Left to 
Die, They Called for Help. Negligent Army leadership refused 
and abandoned them on the battlefield.''
    I realize that you are trying to win the confidence and the 
support of the Afghan people, but I go back to Mr. Bartlett's 
points and really to the coffee shop that the chairman talked 
about. I hear this frequently back home in the Third District 
of North Carolina, the home of Camp Lejeune Marine Base, the 
home of Seymour Johnson Air Force Base. And people are 
wondering truthfully if you don't have an end point, this is 
beginning to sound like the previous Administration and Iraq.
    You brief the Congress--and I am not being critical of you. 
I want you to fully understand that. You brief the Congress, 
and, well, you know, we are cautiously optimistic, we are going 
down this road and that road, and, you know, it seems like we 
are making progress. I am sure we are making some progress; I 
don't doubt that. But I will tell you that reading this article 
in Newsweek, ``Scandal in Afghanistan: The Exclusive Story of 
How We Have Wasted $6 Billion''--$6 billion--``on a Corrupt and 
Abusive Police Force that May Cost Us the War.''
    I really want to try to figure out whoever is sitting in 
these chairs a year, two years, three years, four years, and we 
still are spending billions and trillions in a 14th-century 
country with corruption that we cannot control, and we have 
got--some of our people in Congress get indicted over here, so 
I don't know how we are going to do it in a country where we 
can't even speak their language hardly.
    So the point is at what point will you say to this 
Congress, do you believe you can say, ``We are at the point 
that we have won the end point of what we are trying to 
achieve''? Because, Madam Secretary, I feel for this 
Administration as well. I made that point. This is something 
they inherited, and we have to fight terrorism around the 
world. But sticking 100,000 of our troops over in Afghanistan 
and telling them, if they fire at you from the left, you shoot 
back; if they fire at you from the right, you don't shoot, that 
is not fair to these kids, it is not fair to their parents and 
their wives and their husbands.
    I guess that is a question.
    Secretary Flournoy. Sir, I am going to let General Paxton 
address the particulars of the rules of engagement because I 
think he is more qualified to do that.
    But let me first take on your concern, which I think is 
understandable and real, about the challenges of capacity-
building and also corruption.
    Afghanistan is a country that has been in and out of war 
for 30 years. In that kind of environment, corruption tends to 
take root in the society at large. It is a problem for other 
countries in the region as well. I think we are seeing renewed 
commitment to dealing with this problem on the Afghan side. 
They have recently established a major crimes task force and 
indicted key officials, the mayor of Kabul, a minister, a 
police general, trying to signal no one is going to be above 
the rule of law. We are at the beginning of a process, but, 
again, we are moving in the right direction.
    We are trying to change the incentive structures that have 
motivated corruption in the past. You are right. It used to be 
that police did not make a living wage. So police would make 
their living wage by fleecing the local population. We have 
changed the pay and benefits, working with the Afghan 
Government, so they don't have to be corrupt in order to make a 
living wage. Things like that are very, very important.
    We are working with the Afghan ministries on long-term 
economic development, things like--they are very rich in 
strategic minerals and resources, very rich in agriculture--
helping them to develop sustainable, long-term sources of 
income for the nation. Those are the longer-term parts of the 
project. But on the specific question of ROEs, I would like to 
defer to General Paxton if the chairman would indulge us with 
time.
    The Chairman. Please proceed. We have to move along, but go 
ahead.
    General Paxton. Thank you, sir.
    Congressman Jones, there is absolutely nothing in the 
tactical directive that prohibits or limits any servicemember, 
marine, soldier, from appropriate self-defense. What is in the 
directive is the conscious application of close air support and 
indirect fire to make sure that if it is not a fleeting target 
or something that poses imminent self-defense, that you have 
done due diligence in terms of assessing collateral damage, 
whether it is for infrastructure, for children, for 
noncombatants. But there is nothing in there that prohibits 
either the commander or the individual soldier from doing what 
he needs to do on the ground, sir.
    The Chairman. Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you all for being here once again. You are regulars 
here in the last few days.
    I want to talk about resources. Secretary Flournoy, you had 
talked about that earlier. I remember sometime in the last year 
or so, General Jack Keane testified, now retired, that when he 
was Vice Chief of Staff of the Army, at the end of 2002, 
resources began being moved out of Afghanistan in anticipation 
of the March 2003 invasion of Iraq. His recollection, it was 
that early.
    Then we began hearing almost privately, I remember the 
Commandant--I am a former marine--at the Marine Corps breakfast 
made the comment that we have a policy of clear, hold, and 
build, but we only have enough troops to clear. We don't have 
enough troops to hold and build. Secretary Gates during the 
Bush Administration made some comments at private meetings that 
he was concerned about the troop strength.
    Mr. McKeon has already referred to the December 2007 
statement by Admiral Mullen. My concern is that the continued 
discussion as if we are still in that mindset. The ranking 
member's opening statement refers to a have-nots mentality. Is 
there a have-nots mentality that would be permeating our 
military commanders' thinking that they don't have adequate 
resources?
    Secretary Flournoy. That is certainly not my impression. I 
think General McChrystal's assessment was to tell us what he 
thought he needed to be the priority mission and to get the 
mission right. And I think when you look at the U.S. forces 
that have been put in, the NATO forces that are being 
committed, the Afghan forces that are being grown, he believes 
he has what he needs to do the mission.
    And I think one of the things that my boss Secretary Gates 
has always said is we have to make sure that we balance our 
approach here, that on the one hand you want to make sure you 
have enough forces in Afghanistan to ensure that you don't fail 
in the mission. On the other hand, you don't want to go 
overboard and come to be seen as a force of occupation.
    Secretary Flournoy. So we have listened to General 
McChrystal very carefully, and what he told Congress in 
December and what he continues to say is that he believes he is 
getting the resources to carry out his mission at this point.
    I don't know if you have anything to add.
    General Paxton. And again, part of the assessment there 
trying to figure out what you need both by people and 
resources, when you need it, and then where you need it, and 
the constant risk assessment.
    I think most members in uniform, if you ask them, ``how 
much do you need,'' the answer would always be ``more,'' 
because the more you have, the less risk you have to assume. 
But we try to constantly assess how many people we have and 
what types of capability we have, and then does that 
sufficiently mitigate the risk, and is it a most likely or a 
most dangerous course of action that you are going to mitigate 
against.
    And then secondly, sir, as we look to increase the 
capability and the capacity of the Afghan forces to make sure 
that, as they shoulder more of the burden, then we can 
requisite, stand down, and do perhaps less. We teach them, we 
show them, we lead them, and then we turn over to them.
    Dr. Snyder. And I appreciate your sentiment today. The 
nature of war is such that I hope if that were to change 6 
months, a year, 18 months, 2 years from now, that you thought 
that you did not have the resources you needed, I hope that you 
would express the same level of candor.
    I yield back. Thank you, Mr. Chairman.
    Mr. Skelton. Mr. Turner, please.
    Mr. Turner. Thank you, Mr. Chairman.
    I thank both of you for being here today. I have two 
questions, one concerning the troop cap and one concerning drug 
trafficking.
    The first question, General Paxton, is directed at you, and 
it is building on Mr. McKeon's statement and other questions 
that other Members have had during this hearing. People are 
very concerned about our ability to be successful as we are 
looking at the constraints that you are operating under. So my 
question is, what enablers are the NATO allies and the Afghan 
Security Forces relying on for the United States to provide? 
And how has the troop cap of 30,000 impacted our ability to 
support the U.S.-allied forces and the Afghans? As ISAF 
[International Security Assistance Force] coalition adds I 
believe what is 4,500 out of perhaps 9,000 troops pledged in 
conjunction with the U.S. surge, and as Afghan Security Forces 
grow, how are we ensuring our troops, the allies, and the 
Afghans all have access to the enablers that they need?
    General Paxton. Thank you, sir.
    We have looked very closely at the enablers. No surprise 
that when the U.S. comes, not only do we bring the 
preponderance of the forces, but we bring the preponderance of 
the enablers. So we have more aviation, be it for lift or for 
Medevac [medical evacuation]. We have more engineers for route 
clearance. So you look, when you go to our NATO allies and the 
coalition forces, for them to bring a requisite share of those 
capabilities if they are able.
    Secretary Gates just spoke in Istanbul several weeks ago 
and offered that we would take a look at our obligations, which 
this committee rightfully told us to take a look at in Iraq 
several years ago, to make sure that by resourcing allied and 
coalition partners, we don't necessarily jeopardize U.S. forces 
first.
    But we are at the point now with the production of MRAPs 
and our equipping on the ground that we can take a look at 
those capabilities that we could either share with partners, or 
we could offer to sell to them, or we could put in the FMS 
[Foreign Military Sales] program.
    There is an increased capacity and willingness on the part 
of allies to fund for themselves, to source for themselves, and 
then we also have the capability of sharing with them in areas 
where we are partnered together, sir.
    Mr. Turner. Everyone continues to be concerned about how 
those resources come out of the total resources that are 
applied, and whether or not we have sufficient response to meet 
our needs.
    Turning to the drug trade. In a December 21, 2006, remark 
to the Atlantic Council, General Jones stated that ``the 
Achilles heel of Afghanistan is the narcotics problem.'' 
General Jones suggested that the solution has to be broad. It 
is not one thing. There is no recipe for this. It is not just 
eradication, not crop substitution. It is a lot of things that 
can be combined to begin to wean the economy.
    More specifically, he called for: one, a judicial system 
that is functional; two, police reform; three, involvement of 
the Afghan Government; four, extending the reach of the Afghan 
Government to Pakistan.
    I know that when we look at the issue of the drug trade, we 
have to be concerned about how do we address the issue of the 
money, the cash that flows through the drug trade, the 
transportation routes for drugs themselves, the labs that are 
producing the drugs, the fields themselves where we need to 
look for an economic shift. Part of the problem has been a lack 
of an assessment of a complete to-do list, and then execution 
of that to-do list.
    According to recent report by the National Security Council 
[NSC], a new U.S. Government counternarcotics strategy for 
Afghanistan has been approved. It is my understanding that the 
Hill has not yet been briefed on this new strategy, and that we 
don't have that here for our staff. I am very concerned about 
this. What can you tell us about this new strategy?
    And I would like to hold up this chart. This is a CRS 
[Congressional Research Service] report chart that shows the 
Afghan drug trade. As you can see, the last four years--and if 
you fold it in half, you can see what the normal production of 
narcotics have been in Afghanistan. The last four years have 
been their own surge, their narcotics surge. And that is 
really, I believe, the root of what we have been facing in 
Afghanistan. As we try to address the issues of Afghanistan but 
don't address this drug trade, we are going to continue to fund 
and fuel our adversaries.
    What can you add to that discussion, please?
    Secretary Flournoy. Sir, we did refine our counternarcotics 
strategy as part of the review we conducted late last year, and 
I am happy to invite our interagency partners to come up and 
brief this committee if you have not been adequately briefed.
    Narcotics is a key funding stream for the insurgency. We 
have established a threat finance cell that looks at the nexus 
of narcotics and the insurgency to go after that. We have also 
helped train Afghan forces that are specifically focused on 
drug interdiction. We have crop-substitution programs under way 
to try to transition farmers to licit crops. We are focusing 
infrastructure development to make sure that once farmers grow 
licit crops, they can actually get them to market and so forth.
    I think in areas where this has come to together, in RC 
[Regional Command] East, for example, you have seen a drop in 
poppy production. RC South is the new area of focus where we 
will be putting all of those elements in place to seek to make 
the same kind of progress there. But we would be happy to come 
back up and brief you, sir.
    The Chairman. I thank the gentleman.
    The gentleman from Connecticut, Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Secretary Flournoy, you, in answering Mr. Skelton's 
question, had a definition of victory as the point in which 
Afghanistan has the capacity to exert sovereignty and deny 
Taliban safe haven, which really seems to, in my mind, 
prioritize the need to get functioning security forces.
    The New York Times yesterday quoted a Pentagon report which 
said that the most significant challenge to fielding qualified 
Afghan Security Forces is the shortage of institutional 
trainers. I know Mr. Ortiz touched on this earlier, but, again, 
the story listed the fact that NATO and the U.S. agreed to 
5,200 trainers last January. There is 2,700 there today. All 
but 300 are U.S. And obviously Secretary Gates, I know, has 
been working hard to try and extract the bodies that were 
committed. But at the same time, we are flowing 30,000 new 
forces. And clearly, this is so important to have the trainers 
there. I mean, at some point it seems that we should just do it 
and stop sort of waiting for that commitment to materialize. 
And I just--well, why don't you comment?
    Secretary Flournoy. Well, the decision to deploy the 
additional U.S. forces as a bridge mechanism is to plug the 
immediate gap of what is needed now. We want to continue to 
incentivize our partners to step up with additional training 
contributions, but we--this is a priority, and we will plug 
those gaps.
    The other thing that really makes a difference here is the 
shift in General McChrystal's strategy to put an emphasis on 
partnering, so that every ANA unit, every Afghan Police unit 
has an ISAF or U.S. partner that is training--continuing the 
training in the field, mentoring, doing the leadership 
development. And so there is the institutional training piece, 
which is critical with this partnering, is where you are really 
going to further develop your force and its competency to 
really take leadership over time. So that is an area of focus, 
and we are putting about as much energy as can possibly be put 
on this, on closing this gap, sir.
    General Paxton. And the training is holistic, too. So we 
are looking to train the ministries as well as the police and 
the armed forces. And within the police, we are looking at 
local police, the end cop. So it is across the board.
    We recognize that, in addition to the training in general 
and the training across the board in specific, there is a 
unique requirement to train leadership. So one of the things we 
want to do as we get both U.S. forces and allied and NATO and 
coalition forces trainers there is to concentrate on NCO 
[noncommissioned officer] training and officer training, too, 
sir.
    Mr. Courtney. Do you question or challenge the Times 
numbers in terms of, again, the commitment that was made and 
where we are today?
    General Paxton. I don't have those specific numbers. As I 
answered for Congressman Reyes, though, we know that there is a 
gap there, sir, between what was pledged and what has shown up. 
And that is why the bridging solution is in there. The 850 that 
was alluded to in either the Post or the Times article on 
Monday is indeed part of an Army battalion and then an 
increment of marines that are going over there that the Chief 
of Staff of the Army and the Commandant of the Marine Corps 
have said these are available and ready, and these can help as 
a bridging solution. And some of those already have a backfill 
mechanism, so that if by the end of their normal tenure, be it 
three months, four months, six months, if we don't have 
sufficient allied contributions, we can backfill again. We 
don't want to do that. We would like to get solutions from the 
NATO allies, but we can do that, sir.
    Mr. Courtney. And I guess I understand your point that we 
want to extract those commitments that are made, that a deal is 
a deal. But on the other hand, I mean, the President's goal of 
2011 as sort of a turnaround point, and somebody who was over 
last week visiting Connecticut National Guardsmen who were hit 
by an IED Easter Sunday morning, you know, waiting for our NATO 
allies is just--time is the enemy. And I guess if the training 
piece is so critical to getting to that point that you defined 
as sort of success, it just seems that we should just do it. We 
should just move.
    Secretary Flournoy. Sir, we will come back to you with a 
more full explanation, but we are--the gaps of what General 
Caldwell needs now, we are moving to address those now, and the 
rest will follow over time. But we agree, this is the priority, 
and we are working in ways to address it in ways as quickly as 
possible.
    The Chairman. Before I call on Mr. Kline, let me address 
the potential Achilles heel that we have to overcome before we 
can use the word ``success'' or the word ``victory.'' And each 
of these is a serious potential Achilles heel. Pick out, if you 
would, the one or two of the list I give you that are the most 
serious.
    First, the corruption within the Afghanistan Government. 
Next, bad governance of the Afghan Government. Next, bad 
military strategy in fighting. Next, the Afghanistan Security 
Forces collapsing. Next, Pakistan refusing to help fight the Al 
Qaeda and the Taliban. Next, the lack of resources to the 
fighters. Next, the lack of resolve with our military and our 
allies. Next, logistics routes being shut down. And, last, the 
regional countries acting to undermine the Afghan Government 
and support the Taliban.
    Which of those concerns you the most? Which could lead to 
defeat in allowing us to use the word either ``success'' or 
``victory''?
    Madam Secretary.
    Secretary Flournoy. Sir, when I look at that long list, I 
think that actually we have the right military strategy in 
place; that the development of the ANSF is challenging, but is 
moving in the right direction; that we are seeing Pakistan step 
up to the fight; that we are putting the right level of 
resourcing against the problem and so forth. So I think the 
ones that really will be the greatest challenges longer term 
are the involvement of regional--other regional stakeholders 
and ensuring that they do not interfere in or undermine 
Afghanistan's progress towards security and stability. And I 
think overcoming decades of war to establish strong and good 
governance at all levels in Afghanistan, not just at the 
national level, but at the local level where most Afghans 
actually experience their government.
    The Chairman. General.
    General Paxton. Mr. Chairman, I wrote down the nine of 
them, and I highlighted the same two that Secretary Flournoy 
did. They are all critical, they are all important, they all 
sometimes can appear tenuous. But we have both the capability 
and capacity ourselves, the United States, certainly with our 
NATO and allied partners, and then growing in capacity and 
capability with the Afghan--both GIRoA, the Government of 
Afghanistan, and the Afghan Security Forces. I think we are 
well on our way to tackling five or six of those.
    So my biggest concern would be those that we have the, for 
lack of a better term, the longest flash to bang, the longest 
lead time before we see measures of success. So how they 
demonstrate good governance within the Government of 
Afghanistan, and then how we get cooperation and support from 
regional actors and neighboring nations are the two that 
concern me the most, sir.
    The Chairman. Thank you so much.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you both for joining us again so quickly after your 
last visit.
    I must say that I was surprised and pleased to hear from 
both of you in response to Mr. McKeon's questions about a cap, 
a troop cap, that there is no troop cap. So I take it to mean 
from that that if General McChrystal, General Petraeus need 
another 5,000 or 10,000 U.S. forces, that that is fine. That is 
something you would take up. There is no cap. If they need 
them, they get them. So I am very pleased to hear that. And 
that relates to a couple of other questions that I have.
    One, if--for the record, General, I think this comes from 
your shop. We understand that there are three force packages 
that are deploying to Afghanistan, and they contain combat 
forces and enablers. And if you could get for us a breakdown in 
those packages of combat forces and enablers. And, sir, I hate 
to do this to you, but we are going to mark up the NDAA 
[National Defense Authorization Act] next week. So if you could 
get that for us this week, for the record--I assume you have 
them already--we would like to see that.
    And then, in light of the troop requirement, do we already 
have a plan--either one of you--a plan in place to backfill the 
Dutch and Canadian forces that are leaving in 2010 and 2011? 
And if you have a ready answer for that, I will take it now. If 
not, I will be happy to take it for the record.
    Because I want to get to another issue, again related, I 
believe, to the requirement for forces. It was raised by, I 
think, the ranking member and perhaps some others, and that is 
the Joint Urgent Operational Need [JUON] that came from CENTCOM 
[United States Central Command] originally back in 2009 for 
sense, warn, and response capability. And I want to focus on 
that and not force protection in the large.
    There was this urgent need that was identified back in July 
of 2009, and we worked our way up until March of this year when 
General Petraeus told this committee that they were exploring 
the use of contractors to meet some of the requirements 
contained in this JUON.
    And so my question is, has that JUON been modified? And, if 
so, why? And is it true that we are looking at contractors 
because we either don't have U.S. forces, or a decision has 
been made not to use them?
    And I will tell you why I am really concerned about this is 
that if we were to use the model that we had in Iraq, we would 
already have soldiers with a lot of that capability in place in 
our FOBs. We have got U.S. forces over there in these FOBs. And 
I have a personal familiarity with that. My son happens to be 
not only in one of those FOBs, but commanding one of them. We 
ought to be providing them with the security that they deserve.
    So the question is, are we looking at contractors? And, if 
so, do we have a contract in place? And if not, why not? 
Because we are possibly not providing the force protection that 
we ought to be doing.
    General Paxton. Yes, sir. I will start with the JUON, sir, 
and then I will see if we have time, if it permits, to go back 
to your other questions on the Dutch and the Canadians.
    The JUONs is a process. It is obviously requirements-based, 
and General Petraeus did submit it, and it is under review 
right now.
    Mr. Kline. General, this is an urgent need. That is the 
acronym; it is an urgent need. And I would think that that 
would--force protection would indeed qualify as an urgent need. 
So I am a little bit concerned that this is a process that is 
dragging out. And, according to our understanding, that is what 
I am getting at, are we still--I hate to use the word 
``dithering,'' but are we still wringing our hands over whether 
or not we are going to use contractors or U.S. forces? And are 
we not getting the contract in place?
    General Paxton. And with that then, sir, I will take it for 
the record to find out exactly the status of the requirement 
and in the thought process behind who is best equipped, whether 
it is military or civilian, to actually work with the sense and 
the shoot system, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Kline. Thank you. I yield back.
    The Chairman. Mr. Kissell, please.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you, Madam Secretary and General, for being here 
today.
    Following up a little bit on some of the questions we had 
before, and I want to go back a little bit in time. Over a year 
ago General Fields, Commander SIGAR, Special Inspection General 
for Afghan Reconstruction, was here and talked to us basically 
about that we are making a lot of the same mistakes in 
Afghanistan that we made in Iraq in terms of not working with 
local people and not building what the people needed, projects 
that were not being properly supervised, so forth and so on. 
And I invited the general to come to my office for an update, 
and he reiterated a lot of the same problems. I invited the 
general back later on, and he said we had made some progress. 
And the general's quarterly report came out last week.
    I am wondering if you all had looked at that. And where do 
we stand in terms of where the Special Inspector General says 
we now are interacting with the Afghan population?
    Secretary Flournoy. Sir, I would say that one of the things 
we found coming into office was that development efforts in 
Afghanistan were not fully harnessed to an overall strategy. 
There was a lot of good effort going in, but a lot of different 
countries contributing in a lot of different ways based on 
their own national goals for Afghanistan. But it wasn't all 
pulled together in a strategy.
    I think one of the real changes that we have seen under 
General McChrystal and Ambassador Eikenberry and with the 
civilian surge is an integration to try to ensure that all of 
our development efforts of the international community are 
actually fully synchronized with and in support of the 
governance and security objectives of the counterinsurgency 
campaign.
    And so that is something that has been happening over the 
last several months. And I think that there are areas where--
particularly in the south and the east--where that is coming 
together in a much more integrated fashion. But given where we 
started, that is still a work in progress. But we are very much 
trying to respond to some of the insights and lessons learned 
that were in the SIGAR report.
    Mr. Kissell. Well, I think that the comment you made 
earlier that most Afghans interact with local government--and 
this is where the report just seemed to show that we weren't 
paying attention; that we were building roads that could not be 
maintained, that we had energy projects that they either 
neither had the diesel fuel for, could not afford it, or could 
not maintain it. And there were several--I think it was like 19 
out of the 36 governors who were saying that we were not asking 
them their opinion before we did things. So we do need to watch 
that because that is, in my mind, a great measure how we will 
have success with the Afghan people as we go. And I will be 
contacting the inspector general and asking him his opinion.
    And I would like to follow up with what Mr. Himes said in 
terms of if we need to be providing more security for our FOBs, 
then that should not be something we are discussing, it should 
be something we are doing.
    With that I yield back, Mr. Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Now, first of all, Secretary Flournoy and General Paxton, 
thank you so much for your service to our country.
    General Paxton, would you agree or argue that the center of 
gravity for the Taliban is its ability to control the civilian 
population overtly, or covertly through a shadow government, 
and exact revenues from them?
    General Paxton. I would agree with that, sir.
    Mr. Coffman. Then in looking at the operation that we are 
going to do next in Kandahar, which is the basis of the Taliban 
in terms of that is where they originated from, if we were able 
to deny them that, the ability to exercise governance over the 
Taliban people either through a shadow government or covertly, 
what does that do in terms of--I mean, from an overall 
perspective in terms of this war in Afghanistan and bringing it 
to a close?
    General Paxton. The first step, obviously, it denies them--
just so you have a physical freedom of movement. It denies them 
the emotional, the intellectual, the governance freedom of 
movement. So if they have a populace that they can't reach, or 
a populace who does not believe their message, or a populace 
who is unwilling to follow them, then the fertile ground that 
they seek to either control physically or to institute some 
terror, either high-profile attacks, murder and intimidation, 
unquestioning sharia law, so that they have lost that 
opportunity there. So what that does is give both us in the 
short-term and, more importantly, the Government of Afghanistan 
in the long-term operating room and breathing space so they can 
build loyalty, fidelity; they can get schools going, health 
clinics; they can give them the evidence of social services and 
infrastructure that the people of Afghanistan need.
    Mr. Coffman. I was in Afghanistan in November and met with 
General McChrystal at that time, and asked him prior to the 
President making his announcement as to a timetable that we 
would, in fact, begin to be able to draw down our forces in 
2011 was the objective of the President, and that I asked 
General McChrystal if he got the troops that he requested, when 
could we expect to draw down our forces? And he said 2013. Keep 
in mind that--and I asked him, he was referencing the 40,000 at 
that point. Now, he got 30,000 and, I understand, 9,000 from 
our coalition partners.
    First of all, could you respond as to what the net is in 
terms of coalition partners since some are withdrawing? And, 
number two, to what extent do those coalition partners that 
will exist going forward have caveats that keep them from 
participating in certainly kinetic operations?
    General Paxton. At this time, Mr. Coffman, we have 46 
troop-contributing nations in Afghanistan, including the United 
States. It is almost a 50/50 split. I think it is 22, 23, and 
1, the number that are caveat-free, that can do anything. And 
some of them, while certainly restrictive, are not preemptive. 
That doesn't preclude them from what they can do. So I know the 
commanders on the ground take a very close look about how they 
assign battle space and how they assign missions to get the 
maximum use of each of the troop-contributing nations when they 
get there.
    I would have to take a look at the master plan to see, in 
the aftermath of Kandahar, as we stay there in the days ahead, 
where the laydown of forces may be. And I can get that to you, 
if you need that, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Coffman. Thank you, General Paxton. I appreciate that.
    Secretary Flournoy, I was listening to your statement in 
defining the mission as it exists now under this 
Administration. And I think at one point in time you said it is 
about keeping Al Qaeda out of Afghanistan. And then you 
qualified that further in terms of Al Qaeda and their 
associates.
    What is the end-state? Is the end-state potentially--since 
you did mention the Taliban, is it a coalition government that 
would incorporate the Taliban or elements of the Taliban?
    Secretary Flournoy. I think that the key, from our 
interests' perspective, is to deny any safe haven for Al Qaeda 
and its associates. I think that, in any situation, a COIN 
strategy, the military dimension takes you so far, and at some 
point there is a political set of outcomes that are reached. We 
saw this in Iraq.
    I think we are, the Afghanistan--we are working with the 
Afghan Government to try to get a better understanding of the 
process that they will ultimately lead on both reintegration 
and reconciliation. I think it is very important to set a set 
of criteria for who will get reintegrated back into Afghan 
society and how, and whether it is disavowing Al Qaeda, laying 
down their arms, abiding by the Constitution, those are the 
kinds of criteria that the Afghan Government will need to 
articulate as they get to the point of defining what an 
acceptable political end-state looks like. And we will 
certainly be in deep conversation with them about that.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Heinrich.
    Mr. Heinrich. Thank you, Chairman.
    Secretary Flournoy, I hate to beat a dead horse, but since 
several of my colleagues have repeatedly referenced a supposed 
30,000 troop cap, can you give us a one-word answer: Has the 
Administration imposed a troop cap in Afghanistan?
    Secretary Flournoy. No, we have not imposed a troop cap. 
What President Obama did in December was to approve 30,000 
troops, additional troops, for Afghanistan and a degree of 
flexibility for the Secretary of Defense to authorize further 
troops in support of force protection.
    Mr. Heinrich. And has General McChrystal requested 
additional troops?
    Secretary Flournoy. There have been a couple of cases, such 
as the----
    General Paxton. In general, he has not, sir, because we are 
in the process of flowing all three of those force packages. 
And the obligation would be that he would take a look at how 
they met the mission on the ground before he came back. Within 
that, we have made some adjustments both in terms of combat 
forces and trainers on the ground. So we have made some modest 
adjustments in the number.
    Mr. Heinrich. And do you think that General McChrystal 
would continue to feel free to request those kinds of 
adjustments if he feels necessary?
    General Paxton. Absolutely.
    Mr. Heinrich. Do you think the Secretary of Defense, the 
President, or anyone else has ever ordered General McChrystal 
not to make those kinds of requests?
    General Paxton. No, sir.
    Mr. Heinrich. Thank you.
    I want to shift real quickly to one more thing before I 
yield back the rest of my time. On the training issue, with the 
stopgap measures that were mentioned in the New York Times 
article, how do you mitigate the loss of lessons learned in the 
handover between the stopgap folks who are plugging the hole 
now and the long-term training force to make sure that we 
continue to ramp up and build that progress in a way so that we 
don't lose those important lessons?
    Secretary Flournoy. Part of it is they are all teaching to 
the same curriculum. Part of it is ensuring overlaps so that 
there is actually a handoff from one group to the next. But it 
is really the establishment of NTM-A and CSTC-A and with 
General Caldwell as sort of the keeper of the knowledge, if you 
will, for the training efforts. I think there is going to be a 
lot of continuity on his staff and on the people who are 
training the trainers, if you will.
    Mr. Heinrich. Thank you. I yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank both of you for your service, Madam Secretary, 
and, General, thank you.
    And, General, I had the great honor last August to visit 
with the Marines at Camp Leatherneck, Camp Bastion, and it was 
really inspiring since I represent Parris Island Marine Corps 
Station, to see the dedication of our marines. I particularly 
appreciate what both of you are doing, because I am the co-
chair of the Afghan Caucus. I have visited the country nine 
times. I have great respect for President Karzai, for the 
Defense Minister Abdul Wardak. I have faith in Ambassador 
Eikenberry and certainly General McChrystal and General 
Petraeus. I feel like we have got an extraordinary team of 
people there.
    Firsthand, my former National Guard unit, the 218th 
Mechanized Infantry Brigade of the South Carolina National 
Guard, served for a year in Afghanistan, led by General Bob 
Livingston. And I visited with the troops from South Carolina 
every three months, and I found out that there was an 
extraordinary relationship between the American forces and the 
people of Afghanistan to the point where they identified each 
other as brothers, American and Afghan brothers. So I am 
hopeful. Perfect, no, but very hopeful.
    With that, the ever-changing situation, what is the status 
of cross-border collaboration between Afghanistan and Pakistan? 
And have there been significant changes in the past year?
    General Paxton. Thank you, Mr. Wilson.
    We were here with the committee last week to talk a little 
bit about Pakistan, sir. And there have been positive 
engagements and positive changes on both sides of the border 
within the last year, and this includes a master laydown for 
some border coordination centers (BCCs), some BCCs and JCCs 
[Joint Coordination Centers]. And we have been able to work 
with both the PAKMIL [Pakistan Military] on their side of the 
border as well as with the Afghan National Security Forces in 
terms of manning and equipping those stations. Two of them are 
fully operational/capable at this time, and we are looking at 
the location and the manning of the others. So all of that 
demonstrates a degree of trust, a degree of transparency, and a 
degree of equal procedures, if you will, so that it mitigates 
and lessens the tension on the border. So that is a good 
indication and a very positive one within the last year, sir.
    Mr. Wilson. And I am really hopeful. In my visits to 
Islamabad and other parts of Pakistan, to me it is so clear 
that it is mutually beneficial, the security of both countries.
    It has already been expressed, concern, but in regard to 
training security forces, Secretary Gates last week or recently 
announced 850 additional trainers as a stopgap measure to fill 
vacancies. A problem has been our NATO allies fulfilling their 
obligations. And I was very happy working with Congressman 
Solomon Ortiz, who is the co-chair of the Romania Caucus, to 
find out last week from the Ambassador of Romania that they are 
now increasing their participation from 1,200 troops to 1,800 
troops. So there are some positive stories that really should 
be told. And I know on a visit to Bulgaria, the people of 
Bulgaria are very proud of their participation and recognition.
    But what is being done to increase participation from our 
NATO allies?
    Secretary Flournoy. The Secretary has raised this at his 
ministerial, Secretary Clinton at hers. We have had numerous 
visits, calls, et cetera. And the truth is the majority of our 
NATO allies are stepping up. Since the strategy review was 
concluded in December, they are offering above and beyond what 
they had already offered. They are offering more trainers.
    The challenge is that the gap is still there, and so we are 
all asking one another to step up even further. So we will 
continue that process. But I think credit you are right to 
give. A number of countries have stepped up substantially with 
institutional trainers, with OMLTs and with POMLTs since we 
have asked.
    Mr. Wilson. And it was encouraging. Last week I had the 
opportunity to meet with the Foreign Minister of Bulgaria, and 
they are so proud of the American bases that are now in their 
country. And they did point out, General, that they would be 
very happy at such training bases such as Novo Selo to provide 
for advanced training for personnel prior to being deployed. 
And they have got the capability, they have got the bases, and 
they have got citizen support within the community.
    But again, thank you again both of you for your service and 
what you are doing by defeating the terrorists overseas. Thank 
you.
    The Chairman. I thank the gentleman.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you, Ms. Flournoy and General, for being with us.
    For what it is worth, I have also met Mr. Karzai. And for 
what it is worth, my reaction was just the opposite. And if I 
had been present when he threatened to go over to the Taliban, 
my response would have been, ``Don't let the screen door hit 
you in the rear end,'' for what it is worth.
    Having said that, Ms. Flournoy, I am reading a book by a 
Russian infantry officer called The Bear Went Over the 
Mountain. It is mostly about tactics, but what is disturbing 
about it, it seems to be the same ambushes in the same places 
going over about a 10- or 12-year period. And they talk about 
training up an Afghan Army, they talk about training up an 
Afghan National Police. And we know that four years after they 
left, the puppet government they set up was gone.
    Now, I appreciate the general. I mean, he got to be a 
general by being a can-do guy: I am going to make the best of 
my situation. I am going to make it work. And I appreciate you 
going to work in the Department of Defense. But what 
realistically makes you think the outcome is going to be any 
different this time?
    Secretary Flournoy. What makes me think the outcome will be 
different is the fundamental objective of the mission and focus 
of the mission is different. Institutions built under hostile 
occupation don't tend to have longevity and credibility with 
the population. Institutions that are built with the support of 
the population----
    Mr. Taylor. Ma'am.
    Secretary Flournoy [continuing]. Have a lot more chance of 
succeeding over time, and that is what we are trying to do with 
this ANSF.
    Mr. Taylor. And I appreciate you saying that. I have not 
lived in Afghanistan. Rory Stewart did, and he told me after 
living there for years and walking across Afghanistan that the 
Afghans mockingly refer to Karzai as the ``America Bull'' 
because once you get outside the city, he has absolutely no 
influence. So how would you respond to that? And that is coming 
from someone who has lived in Afghanistan.
    Secretary Flournoy. Again, I think that, at most, Afghans 
experience governance at the local level, and building up the 
credibility and capacity of the local institutions, the 
district level and so forth, is where--is going to influence 
the judgment of the Afghan people. And I think that the 
progress we have seen at that level and, frankly, in an 
increasingly competent national government in terms of the 
cabinet that President Karzai has put together, that is 
changing attitudes. I mean, this poll that says 59 percent 
believe that the government is actually heading in the right 
direction. I don't think you have ever had a poll in 
Afghanistan say that before. And that is in response to changes 
that they are experiencing on the ground.
    Are we there yet? Absolutely not. Are we at least starting 
to go in the right direction? Yes.
    Mr. Taylor. And how would you respond to an equal 
perception by a majority of the Afghans who think that Karzai's 
brother is the biggest narcotics dealer in Afghanistan?
    Secretary Flournoy. I don't want to focus on individuals.
    Mr. Taylor. That is the President's brother. That is why I 
think we should focus on an individual.
    Secretary Flournoy. I think it is very important to look at 
the governance at all levels and the progress that is being 
made across all----
    Mr. Taylor. Well, that is the President's family, ma'am. If 
the President of a country can't tell his brother to get out of 
the narcotics trade, if someone the United States military is 
renting property from, if we can't turn around and as a 
condition of our lease on that property say, and, by the way, 
you are going to get out of the narcotics trade, where does it 
begin?
    Secretary Flournoy. You know, sir, I don't feel like I am--
it is appropriate for me or, quite frankly, I am not the person 
qualified to evaluate specific individuals or cases. But what I 
can say----
    Mr. Taylor. Ma'am, if you are not, who is?
    Secretary Flournoy. Well, let me tell you what I have seen. 
When I just came back from the Arghandab, I have seen a place 
that had no Afghan governance whatsoever for years. And in the 
last six months, after some very difficult fighting on the part 
of international and Afghan forces, we have enabled a district 
governor who is clean to be put in place, who is working with 
local tribal leaders, who is working with the international 
community to funnel aid to projects that are getting--for 
benefiting the population, getting their buy-in, and for the 
first time creating a district governor center that is the go-
to place for the Afghan population. That is the model we are 
trying to replicate. The fact that it is possible in the 
Arghandab, which has been called the ``heart of darkness'' by 
many authors writing about Afghanistan--the fact that is 
possible there means that it is possible elsewhere in that 
country. And that is what we are trying to achieve.
    Mr. Taylor. Madam, how long do you think President Karzai 
would live without the American military protecting him?
    Secretary Flournoy. Sir, I am not in a position to 
speculate on that.
    Mr. Taylor. Well, don't you think that puts us in a 
position to at least dictate some terms of our engagement, like 
narcotics, like honesty in government?
    Secretary Flournoy. I am sorry.
    Mr. Taylor. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. And in the interest 
of maintaining this enjoyment and fun that you are having, I 
will go ahead and ask a question.
    Walking across the street the day that the health care vote 
was going on, somebody stopped me and said, aren't you offended 
that the President, during this momentous occasion, is watching 
the basketball game? And I said, no, I am not offended by 
whatever the President is doing this afternoon. What I am 
offended, though, more is the fact that we have had a fight 
going on in Afghanistan for six months that the Marines have 
been in hammer and tong, and not one word about the wonderful 
success that those men and women have been doing coming out of 
the White House. Now, a lot of talk from Gates and others, but 
nothing out of the White House.
    That offends me, because I couldn't care less what he 
spends his Sunday afternoon doing, but it does offend me that 
the White House has failed to recognize the hard work that you 
have just referenced, Ms. Flournoy. So hopefully, on the go-
forward basis we will get a little more attention to the 
successes that are coming out of there.
    Secretary Flournoy. Sir, I just want to say for the record 
I don't believe that is accurate. It may not have gotten 
adequate press coverage, but the President has certainly not 
been silent.
    Mr. Conaway. Well, I look forward to him making sure he 
gets out what he wants to get out, Ms. Flournoy. We can have 
that tussle, if you would like. That wasn't my intent.
    And I am blanking on the general's name. Back in January, 
we got a report from a general that said that the focus on 
intelligence in Afghanistan was overbalanced toward finding bad 
guys and dealing with bad guys, and that it needed to be more 
of a balanced approach so that our company and squad and 
commanders on the ground knew who the players were and who the 
good guys were, who the bad guys were, what the crops were, all 
the kinds of stuff that you would normally need in order for us 
to do the full-spectrum job that the fight in Afghanistan 
involves. Killing bad guys is front of the list, absolutely.
    General Paxton, your assessment as to rebalancing. Was that 
the case? Or we added new resources to the system so that those 
company commanders do know what is going on them around them 
with respect to the economy, with respect to everything else 
that it is nonkinetic in reflection of that report from 
January?
    General Paxton. Yes, sir. A COIN fight, when you are doing 
the shape, clear, hold build, it has to be enemy-focused. It is 
population-focused in terms of the strategy, but the tactics 
have to be focused on who you think the bad guys are, where you 
think the bad guys are, what you know about them. So it is a 
constant drive for more intelligence. And we have tried to 
strike that balance between intelligence assets, whether it is 
ISR that is overhead or whether it is elevated line of sight, 
between what is available at the strategic level, what is 
available at the operational level, and what is available at 
the tactical level. And I have a good feeling that the flow of 
forces and the flow of capability is adequately meeting the 
needs or is projected to meet what we think will be current 
gaps in the needs.
    One of the additional responsibilities I have for the 
Secretary is to sit on the Senior Integration Group, what used 
to be called the Counter-IED Task Force. So Dr. Carter and I 
are taking a look about the equipping side and to make sure 
that we have adequate technologies, capabilities, requisite 
training so that we can identify IED materials, as well as safe 
havens or border-crossing sites where they may come from. So we 
are paying attention to that, sir.
    Mr. Conaway. Well, I guess the focus wasn't so much as on 
the--and, again, the kinetic side is what they are there for. 
But by the same token, if you are trying to understand what 
will make sure that the local folks see us as more of a 
solution as opposed to just the policemen, making sure that 
those ground-level commanders have as much information as they 
need. And I blanked on the general's name, and I apologize for 
that, but it did seem to be a little broader than just who the 
IED guys were and focused on the bad guys as opposed to 
information that the commanders need to know, that digging a 
well over there would be really important versus paving a road, 
or that these are the folks within the community who are the 
opinion leaders and working with them makes sense versus 
others. I mean, that kind of intelligence that is broader than 
just there are three bad guys over there, they have been there 
for an hour and a half, they have done all the stuff, go shoot 
them. But the issue, if it is in counterinsurgency, you have 
got--I think it is broader than just killing bad guys.
    General Paxton. Yes, sir. But I think the development of 
our human intelligence and the way we train our small-unit 
leaders, we are spending adequate time on that at the National 
Training Center in Fort Irwin, at Mojave Viper in Twentynine 
Palms, at home station training at Fort Campbell and Camp 
Lejeune.
    Mr. Conaway. But downrange, they have got the tools they 
need then to exploit that training?
    General Paxton. Yes, sir. I am convinced that they do, sir.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Kratovil, please.
    Mr. Kratovil. Thank you, Mr. Chairman. As typical, I have 
just received note I have got votes in just a minute.
    But, Madam Secretary, General, thank you for being here and 
for your service.
    I want to go--a lot of the questions you have been 
receiving have been very specific. I want to go to a couple 
broader questions. Would you agree that our primary goal in 
Afghanistan is defeating Al Qaeda? Start with that.
    Secretary Flournoy. Defeating Al Qaeda and its associates. 
Yes.
    Mr. Kratovil. And how does the strategy that we are doing 
in Afghanistan that we are doing right now facilitate our goal 
of not just defeating Al Qaeda in Afghanistan and Pakistan, but 
worldwide?
    Secretary Flournoy. Afghanistan and Pakistan, that border 
region, has been the sort of locus of--sort of heartland, if 
you will, of Al Qaeda for many years. And so I think denying 
them sanctuary and safe haven there, disrupting them there has 
a powerful impact on the global network. We are also trying to 
make sure that the Afghans and the Pakistanis have their own 
capability to do that denial in the future.
    Mr. Kratovil. Would they not simply--assuming that happens, 
and we create stability there, would they not simply seek 
another safe haven, Yemen, other places? What prevents that?
    Secretary Flournoy. I think some of them may. But I think 
the truth is the combination of ethnic, tribal, other ties to 
this particular region makes it their preferred home, if you 
will. And other places will not be as hospitable to as many or 
to as robust a network.
    Mr. Kratovil. If they did seek safe haven elsewhere, would 
you believe that the strategy that we are taking in Afghanistan 
would be an appropriate one in that location as well? In other 
words, is that a sustainable approach?
    Secretary Flournoy. I don't think that--I think that each 
environment has to be dealt with in its own terms. And to the 
extent we are dealing with the network in other places, we will 
tailor that effort to the local conditions that are allowing a 
group to gain a foothold.
    Mr. Kratovil. There have been a number of questions on the 
allies. Obviously, the President's request for troops assumed a 
certain level of commitment from our allies. Where are we in 
terms of achieving that number? And what impact does our 
failure to achieve that number or limitations placed on the 
allies in terms of what they can do affect our ability to 
succeed?
    Secretary Flournoy. I think our allies have stepped up 
tremendously, and I think that with allied support we are 
very--we are meeting General McChrystal's requirements. I think 
that going into the future we will need to work with them to 
sustain the mix of capabilities that we need as the operation 
continues to unfold.
    Mr. Kratovil. Did the request for the 30,000 troops assume 
that the 10,000 additional troops from allies, that the use of 
those troops would be limited?
    Secretary Flournoy. Limiting in what sense?
    Mr. Kratovil. In terms of where they go, in terms of what 
they do, in terms of whether they are in safe areas of the 
country or not.
    Secretary Flournoy. Again, I think that ISAF has made use 
of allied forces extremely well. I think our focus and 
concentration has been on the south and the east. Many of our 
allies have focused on the west and the north, with a couple of 
them also coming south with us and east.
    But I think that General McChrystal has been able to take 
into account the various strengths and caveats of some forces 
to be able to handle that. I don't know if you----
    General Paxton. Sir, any time you do your assessment, you 
try and minimize the assumptions because you realize that an 
assumption that you don't have ground tooth on, if it unravels, 
then your plan could go. So when General McChrystal submitted 
the assessment last August, and when the assessment was 
reviewed and analyzed here in the Washington area for several 
months there, it was based on the facts on the ground, which 
was the troop-contributing nations, who they were, where they 
were, what their capabilities were, what their caveats were, 
and then what a reasonable expectation was, whether they are 
going to bring in a replacement force, or whether at that 
time--whether they looked to scale up or scale down. So that is 
why the assessment itself is open-ended, because those dynamics 
could always change with the contributing nations.
    Mr. Kratovil. Where are we in terms of numbers of allied 
troops in relation to the 10,000 that we assumed?
    General Paxton. I believe, as I said earlier, we have 9,000 
that have been pledged since December and a little over--I know 
pledged a little over 4,000 actually on the ground right now, 
sir.
    Mr. Kratovil. Does that take into consideration the troops 
that are likely to withdraw, the allied troops that are likely 
to withdraw?
    General Paxton. And I will have to take that for the record 
because we know which ones we anticipate will withdraw. They 
will come back and tell us whether they are to going to 
replace----
    Mr. Kratovil. Let me rephrase my question. There are 10,000 
troops that were assumed. Of that we have 4,000 on the ground; 
is that right?
    General Paxton. That is correct, sir.
    Mr. Kratovil. And we don't know whether or not that assumes 
the troops that are about to withdraw.
    General Paxton. No. It did as of December when we made the 
plan, that is correct, sir.
    The Chairman. The gentlewoman Mrs. Davis, please.
    Mrs. Davis. Thank you to both of you for being here once 
again.
    And I wanted to just go back to a concept that I think we 
have all been working hard on, and I really want to commend the 
Administration on what we see as a much greater interagency 
collaboration in this effort. We suffered through a number of 
years when we really felt that we weren't able to bring that 
together, and that is happening, and I appreciate that greatly. 
However, I think that there has also been a number of reports 
that would suggest that we are not doing nearly as good a job 
as we could on capitalizing on popular grievances against the 
Taliban, and for that to occur, we need to have enough 
resources really devoted to the political and economic 
conditions, and I know that you all have certainly recognized 
that. We look at the report of the Special Inspector General 
for Afghanistan [SIGAR], and that would suggest that we are 
falling short in that area.
    And so I am wondering, and in light of last week's 
discussion as well, until the military and nonmilitary 
resources that are being utilized here--you said probably a 
good balance in Pakistan, 50 percent perhaps--what guarantees 
can we have that we actually, I would think, need to go beyond 
that in terms of nonmilitary in Afghanistan now in order to be 
able to capitalize on those popular grievances? Where are we as 
you look at that issue and the way that you described it last 
week?
    Secretary Flournoy. I do think that their civilian surge 
has certainly brought more interagency capacity to Afghanistan, 
and I think the embassy had requested additional growth going 
into next year to fill out and push down that capacity from the 
provincial level to the district levels, particularly in the 
critical districts where we think that will have the greatest 
impact. So I think that those requirements continue to be 
refined, and they are going up. And we are going to resource--I 
believe our State Department colleagues and others will be 
seeking support from Congress to resource those additional 
requirements.
    Mrs. Davis. Can you be more specific in terms of where you 
think those resources should actually go?
    Secretary Flournoy. I think a lot of them will be going to 
district support teams to--again, to empower governance at that 
district level, which is the sort of critical interface with a 
lot of the local tribal structures in villages, to harness 
development assistance in support of that, particularly funding 
for things like OTI [Office of Transition Initiatives] coming 
out of AID [United States Agency for International 
Development], Agriculture [United States Department of 
Agriculture]. Rule of law is an area where there has been a 
vacuum, and the Taliban has stepped in. Rule-of-law programs at 
the local level are very important to competing with them and 
displacing them.
    Mrs. Davis. In those efforts is it fair to acknowledge that 
those efforts are not necessarily the kind of bottom-up efforts 
that people are asking for that would suggest that we had a 
pretty good understanding of the people of Afghanistan today?
    Secretary Flournoy. I think what we are doing in each 
district, each critical district, is really starting with a 
needs assessment. What do the people need and want? What do 
they view as important? What do they prioritize? What do they 
expect? And what will be most meaningful to them? And that is 
the foundation for a lot of the realignment of our assistance.
    Mrs. Davis. Some of the articles that are coming out now 
that are suggesting that after eight years we are really not 
even beginning to do that yet, would you challenge that and 
feel that, in fact, we are, and are there some examples that 
you could give?
    Secretary Flournoy. I would, and particularly in the 
critical districts that we have identified as key population 
centers, key to production, key to lines of communication and 
so forth, in those areas we really are pursuing a much more 
needs-based, integrated approach. It may be something that 
hasn't happened in the past, but that is definitely where we 
have been heading in the last year.
    General Paxton. And I would just echo what the Secretary 
said, that a lot of the, whether it is the DSTs [District 
Support Team], the OMLTs, the PRTs, although they may be a 
shell in a nucleus, they are tailored, and they are tailored to 
a needs-based or requirements-driven solution.
    Mrs. Davis. I have just a few seconds.
    General, when the chairman mentioned the Achilles heels, 
and you cited two examples that would be--really that are the 
most difficult, demonstration of good government and the 
cooperation regionally, could you take a stab at a timeline for 
when some of those things you think might--there might be real 
evidence that that was occurring?
    General Paxton. In terms of projecting a timeline, I 
couldn't, ma'am, but I will say we have had positive 
indications in the last year, for example, in Pakistan that 
there is an increased degree of cooperation both with the U.S. 
and with the nations in the area. So I think it is constantly 
evolving, and we have had some good-news stories.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Before I call on Mr. McKeon, speaking about a 
good-news story, the--and, Madam Secretary, you mentioned 
agriculture a few moments ago. Part of the good-news story is 
the National Guard troops that are assisting in teaching better 
agriculture processes to the Afghan farmers. Of course, there 
is a little parochialism in my comment because a good number of 
them have been Missouri National Guard troops who are farmers, 
and that is what they do. I think it has been highly 
successful.
    My question is what are we doing right in Afghanistan that 
we did not do right in Iraq?
    Madam Secretary?
    Secretary Flournoy. That is a really hard question because 
a lot of what we are doing right in Afghanistan, I think, was 
informed by both mistakes and what we eventually did right in 
Iraq, as different as the two countries are.
    I think in Afghanistan, given the nature of the society, we 
are doing a lot more bottom up, a lot more building at the 
local district and moving up to provincial level and 
appreciating the importance of incorporating traditional 
societal structures, the tribes, ethnic groups and so forth, 
and seeking inclusivity, seeking balance that will ultimately 
determine the sustainability of the gains that we make. So I 
think that bottom-up focus, the appreciation for the 
demographics, the cultural landscape is a really key emphasis 
in Afghanistan going forward.
    The Chairman. Thank you.
    General.
    General Paxton. Mr. Chairman, I think the other thing that 
we are doing correctly is that we have captured the lessons 
learned from Iraq and Afghanistan, and we are doing better at 
what we call ``left seat, right seat'' in terms of turnover on 
stations, so that you get a chance to have key leader 
engagements with those individuals that will be significant to 
coming up with immediate and practical solutions in the area. 
And I think we have modified our training continuum at our 
bases and stations here to reflect the situation on the ground 
as well as the recent success stories.
    The Chairman. I thank the witnesses.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Early on in my statement and then in my questions, I asked 
about the 30,000 cap, and you have both assured me that there 
is no cap. The reason I talked about it and asked questions 
about it is that is the way it has been reported in the press, 
that--and the way Secretary Gates has talked about it, that the 
President did approve 30,000, and that the Secretary had 
flexibility of about 10 percent that he could work with on 
that.
    I would like to go back over a little history, as I 
remember it, in the last couple of years. The President became 
President in January of 2009, and he approved in I believe it 
was March an additional 20,000 troops, and came out with his 
strategy and replaced the commanding general, put in General 
McChrystal and gave him time to come up with an implementation 
of that strategy. He presented that in August. It went up 
through the chain of command. We first saw about it--saw it in 
The Washington Post, and we have been given that. We never did 
see the numbers that were attached to it that he came out with 
later. There has been lots of talk about it, that he had 
requested from 40,000 up to--I saw reports up to 100,000.
    The President, after the 90 days, approved the 30,000 surge 
that would be sent to Afghanistan as soon as they could be 
sent, and then they would return--they would begin the drawdown 
in July of 2011, I believe, and be pulled out by December of 
2011. Was that--there was no--in December of 2010, there would 
be a review, and that drawdown of those 30,000 troops would 
begin in July of 2011.
    Am I correct in those statements?
    Secretary Flournoy. What I would say a little bit 
differently is July 2011 is the end of the 30,000 surge, if you 
will, an inflection point where we will begin a conditions-
based process of looking to transition provinces that are ready 
to Afghan lead, with the associated implications in terms of 
the potential changes of mission, potential changes in force 
allocation and some drawdown associated with that.
    I think the responsible drawdown model that you have seen 
in Iraq is going to very much inform the approach that you are 
likely to see in Afghanistan. The President has not put a 
timetable on that except to say that by July 2011, we will 
begin the process, and that date was informed by our judgment 
of conditions across the numerous provinces that some would be 
ready by then.
    Mr. McKeon. Let me also comment on as one of the things I 
remember about that is when I met with General McChrystal, he 
said that he felt 30,000 would be sufficient, even though, this 
is my words now, he had requested more based on all the reports 
we had seen. He said 30,000 would be sufficient, but that the 
mission had been changed, I think, was downsized.
    Now, this 1230 report suggests that there are a total of 
121 districts of interest, but the Joint Command, ISAF Joint 
Command, feels that their only resource is to conduct 
operations in 48 of those districts.
    Can you discuss this, and what resources are we short?
    Secretary Flournoy. First of all, sir, we did--I think 
General McChrystal had the view that you can't focus everywhere 
all the time. You have to have priorities. You have to focus in 
key areas with your campaign.
    Mr. McKeon. When he did his assessment in August, I think 
he was basing that on the strategy that the President had given 
him in March.
    Secretary Flournoy. Right.
    Mr. McKeon. And then that is when--I think when he was 
given the number 30,000, he had to downsize that.
    Secretary Flournoy. I don't think that is quite right. I 
think there has always been an intention to determine where to 
focus in the country that will have the greatest impact on the 
country as a whole, and I think----
    Mr. McKeon. If he had received 40- or 50,000 troops, he 
could have probably focused on more of the country.
    Secretary Flournoy. Do you want to jump in on this?
    General Paxton. Sir, if I may, when the strategy was 
developed and the assessment was under way, there were main 
efforts, supporting efforts, and economy-of-force efforts, as 
there are in any campaign. And your ability to prosecute more 
than one main effort or to do a shift from a main effort to a 
supporting effort and do it faster is all driven by the boots 
on the ground and the amount of forces that you have.
    So we have not deviated from General McChrystal's 
assessment in terms of where he saw the main effort, and then, 
as he moved from what was the supporting effort and brought it 
into the main effort, how he thought the campaign would unfold. 
So it was focused on the freedom of movement of the Taliban in 
the south to start with.
    Mr. McKeon. Do we have agreement on one thing? If he had 
been given 60,000 additional troops, he could have done more 
faster?
    General Paxton. It is a reasonable assessment. Any time you 
get more--it is not a given, it is not a linear equation, but 
when you get more, you can do more.
    Secretary Flournoy. The one thing I will say that certainly 
influenced the President's decision on this was the force flow. 
When he was presented with some of numbers at the higher end of 
the range that General McChrystal put on the table, the force 
flow meant that all of those forces would not be in place at 
one time. And one of the things the President said is, what 
approach will get me the greatest number of forces fastest? And 
that was very much informed--informed the ultimate decision.
    The other thing I would say about the 48 districts, just to 
be clear, is that is based on the forces available, U.S. 
forces, our coalition forces, and Afghan forces, who are able 
to partner. The idea is to focus on 48 this year and then grow 
that number next year and so forth. So that again it is trying 
to ensure that you have enough both military, Afghan, and 
civilian resources to really fully deliver in those districts 
over time.
    Mr. McKeon. It is the first time I have heard the comment 
that you made that all of those 30,000 troops would be there by 
July of 2011. I had always assumed----
    Secretary Flournoy. Oh, the 30,000 will be by the end of 
August, this August. I am sorry, the flow of forces you are 
talking about.
    Mr. McKeon. By 2010?
    Secretary Flournoy. All of the 30,000 that the President 
ordered in December, except for one headquarters that 
McChrystal doesn't need until the fall, will be there by the 
end of August.
    Mr. McKeon. This year.
    Secretary Flournoy. Yes. This year. That influenced the 
President's decision.
    General Paxton. Originally it had been a slower arrival, 
sir, and that was accelerated given the sequence of Ramadan and 
the Afghan elections, and it was to get maximum value there. 
And as the Secretary said, there were two significant caveats 
when we looked at the assessment. One was the absorption rate 
and what you could actually put on the ground in terms of 
infrastructure, basing. And the second one, as is always the 
case, is the enablers. You can get the troops there to do the 
mission, but they may not have the ground mobility or the 
engineering support.
    Mr. McKeon. I appreciate that. I misunderstood what you 
said earlier that they would all be in place by July. I was 
thinking you were talking about July 2011.
    Secretary Flournoy. I think now a year-long tour takes you 
to July.
    Mr. McKeon. That is the way I always understood it. I 
appreciate that. I just misunderstood.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    If there are no further questions, let me ask, what do you 
need from Congress that you are not receiving now?
    Secretary Flournoy. Well, as I said in my opening 
statement, sir, we appreciate the support of Congress in 
general, but in this committee in particular I think the things 
that we have before you now, which are both our fiscal year 
2011 request and our supplemental request, your support for 
those two things would give us the resources we need to fully 
implement General McChrystal's plan and resource the mission as 
envisioned.
    The Chairman. Do you have anything to add, General?
    General Paxton. Sir, I thank the committee and Congress for 
their support of the soldiers, sailors, airmen and marines, the 
training before they go, the equipping and enabling while they 
are there, and for those who bear the brunt of the battle and 
are injured and wounded when they come back. And as we 
mentioned last week in the Pakistan hearing, sir, I thank you 
also for the latitude with multiyear money, which gives us more 
flexibility. So thank you for that, sir.
    The Chairman. Thank you very much. We appreciate your 
appearance and your testimony.
    If there is no further discussion, we are adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              May 5, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 5, 2010

=======================================================================

      
                   Statement of Chairman Ike Skelton

         Developments in Security and Stability in Afghanistan

                              May 5, 2010

    Today, the committee meets to receive testimony on 
developments in security and stability in Afghanistan. Our 
witnesses, both old friends of the committee, are: the 
Honorable Michele Flournoy, Under Secretary of Defense for 
Policy, and Lieutenant General John Paxton, the Director for 
Operations on the Joint Staff. Welcome, both of you.
    Six months ago, President Obama announced the results of a 
comprehensive review of our policy in Afghanistan, which for 
many years had essentially been non-existent. During this 
announcement, he endorsed a new counterinsurgency strategy 
centered on increasing U.S. forces by 30,000 troops, adding 
U.S. civilian experts, and focusing on protecting the 
population of Afghanistan from the Taliban and their terrorist 
allies.
    I endorsed this strategy then, and I do so now. As I have 
said many times, while this new strategy cannot guarantee 
success in Afghanistan, it is the most likely to end with an 
Afghanistan that can prevent the return of the Taliban and 
their Al Qaeda allies.
    Six months into the new policy, it is appropriate for 
Congress to consider how things are going. About 21,000 of the 
30,000 troops have arrived in country, and many have been 
involved in the recent successful military operation in Marja. 
Others will soon begin restoring security in Kandahar, an 
operation that is likely to be crucial to our overall success 
in Afghanistan.
    We have seen other clear signs of success in our fight 
against terrorists. The President's new strategy helped lead to 
the capture of the Taliban's second-in-command, a former 
Taliban finance minister, and two ``shadow governors'' of 
Afghan provinces, the most significant captures of Afghan 
Taliban leaders since the start of the war in Afghanistan.
    While I am pleased with the recent successes in 
Afghanistan, and I anticipate others, many concerns remain. 
Although we successfully cleared Marja, the Taliban still 
appears to be able to infiltrate the town and threaten and kill 
those who cooperate with U.S. and Afghan security forces. This 
may not be unanticipated. It takes time to build the confidence 
of a local population. But I worry that some of this may point 
to the weakness of the local government, which cannot easily 
deliver the services and governance needed to help convince the 
residents of Marja to join the right side.
    While we have increased forces in Afghanistan, our allies 
have also begun to send additional troops. To date, they have 
added about 50 percent of the 9000 new troops they pledged 
after President Obama's December speech. But serious concerns 
remain about our ability to train the Afghan security forces 
who will have to assume the burden of providing security and 
combating terrorism in Afghanistan without more international 
trainers. I am pleased that Secretary Gates has decided to send 
additional U.S. military personnel to fill this gap, but this 
is a short-term solution and not a long-term fix.
    This concern relates to another. In a recent meeting, NATO 
endorsed a process to transition the lead for security in some 
districts from U.S. and allied troops to Afghan National 
Security Forces. I think all of us would like to know more 
about this process and its implications-what progress do we 
have to see in a district before it can transition to Afghan 
lead, and what does this mean for the international troops in 
that district? Are we talking about progress among the Afghan 
security forces or must the district also need a competent and 
honest government?
    Finally, a quick word of congratulations and one of 
caution. The Department of Defense recently delivered a very 
good, and for once on-time, ``Report on Progress Toward 
Security and Stability in Afghanistan.'' Thank you for that. 
Unfortunately, a similar, somewhat higher level metrics report 
filed by the National Security Council was very disappointing. 
It is my hope that future reports will more closely resemble 
the 1230 report and provide real information. Congress cannot 
judge progress from glorified press releases.
    Again, thank you for coming before us today. I suspect this 
will not be the last hearing on Afghanistan this committee 
holds this year, and I appreciate you working with us to ensure 
that Congress can conduct its Constitutional and appropriate 
oversight activities.

         Statement of Ranking Member Howard P. ``Buck'' McKeon

         Developments in Security and Stability in Afghanistan

                              May 5, 2010

    We are a nation at war. The attempted terrorist attack in 
New York City's Times Square serves as the most recent reminder 
that we face dangerous enemies who threaten the safety and 
security of our country. The extraordinary men and women of our 
military, and their families, need no reminding of this threat. 
They know all too well the sacrifices and dedication it takes 
to keep this fight off our shores. Our troops understand why 
they are in Afghanistan: Al Qaeda, operating from safe havens 
provided by the repressive Taliban, planned and launched 
attacks on our homeland.
    A lot has happened since the President stood before the 
American people and made the case for his Afghanistan-Pakistan 
strategy. Over half of the 30,000 forces authorized by the 
President have arrived in country. Our marines and soldiers are 
working side-by-side with their Afghan and coalition partners--
facing snipers, improvised explosive devices, and a skeptical 
Afghan population--to defeat the Taliban insurgency. They are 
operating with some constraints--both political and 
operational. This is where I would like to focus the remainder 
of my comments and questions.
    In my view, this body--no matter on which side of the aisle 
you reside--and this committee in particular--has the moral 
responsibility to ensure that this war is not fought with a 
minimalist mind-set, or with an eye toward the Washington 
political clock. I continue to support the President's decision 
to surge in Afghanistan. As we are seeing in Helmand, the 
additional forces are having an impact and demonstrating that 
we can win this conflict.
    In 2007, Admiral Mike Mullen told this committee that ``In 
Afghanistan, we do what we can, in Iraq, we do what we must.'' 
When it comes to resourcing our efforts in Afghanistan, I 
remain concerned that we are not doing everything we must in 
order to ensure that General McChrystal and his commanders on 
the battlefield have the time, space and resources they need to 
succeed.
    Let me be clear, I have the utmost confidence that General 
McChrystal and his troops will get the mission done. My concern 
is that the minimalist approach being advocated from some in 
Washington raises the risk and increases casualties.
    The ``30,000 troop cap'' put in place by this 
Administration was a decision based on political 
considerations--not mission calculus. The unfortunate result is 
that it is sending the wrong signal to our commanders and 
forcing military planners to make difficult tradeoff decisions 
between combat troops and key enablers. I am particularly 
concerned that we are underresourcing force protection 
capabilities. These lifesaving combat enablers--and others--
were already underresourced prior to the President's troop 
surge.
    It is my understanding that there continues to be a serious 
indirect fire threat to U.S. and coalition Forward Operating 
Bases (FOBs) in Afghanistan, yet the current force protection 
systems that protect FOBs in Iraq are not deployed to protect 
FOBs in Afghanistan. This is disconcerting, especially given 
the fact that we have evidence that such capabilities have 
saved hundreds of lives in Iraq. In March, I raised similar 
concerns to General Petraeus during the CENTCOM posture 
hearing.
    As I understand it, the timeline looks something like this:
    <bullet> LIn July 2009--CENTCOM validated Joint Urgent 
Operational Need (JUON) for Sense, Warn, and Response 
capability for Operation Enduring Freedom;
    <bullet> LIn August 2009--the Office of the Secretary of 
Defense directed the Army to act on the JUON;
    <bullet> LIn October 2009--Congress approved reprogramming 
action in direct support of the JUON; and
    <bullet> LIn March 2010--General Petraeus told this 
committee that they were exploring the use of contractors to 
meet some of the requirements included in the JUON.
    Today, I'd like our witnesses to explain what modifications 
have been made to the original JUON and why these changes were 
made. Why are we addressing this particular force protection 
shortfall differently in Afghanistan than in Iraq? 
Specifically, why are we deploying contractors instead of 
military personnel? It has been almost a year since the JUON 
was validated? Is there even a contract in place yet to field 
this capability? It is my understanding that if we would have 
used military personnel like we did in Iraq, this capability 
would already be over in Afghanistan protecting lives.
    While I have focused on the impact of the ``troop cap'' on 
the fielding of certain key enablers, this ``cap'' becomes more 
problematic when you consider that some of our NATO allies are 
not meeting their commitments and others will be withdrawing 
their forces from southern Afghanistan. I would like our 
witnesses to address the statement made in the 1230 report that 
the redeployment of Dutch and Canadian forces in 2010 and 2011 
will create demands for additional forces in the near future. 
How will we mitigate this 4,700 gap in southern Afghanistan if 
there is a ``cap''? Yesterday, it was announced that the U.S. 
will be deploying 850 more soldiers as a stopgap measure to 
fill vacancies for training security forces. What other gaps 
exist?
    Further, as Admiral Mullen's comments suggest, there was a 
time when many thought of the two wars as a struggle for 
resources, resulting in the ``haves'' and ``have nots''--Iraq 
was the ``haves'' and Afghanistan was the ``have nots.'' My 
suspicion is that the mentality of the ``have nots'' may be 
impacting how commanders are employing the resources that they 
do have in Afghanistan. For example, in Iraq, there was a 
capability called Task Force ODIN (Observe, Detect, Identify, 
Neutralize). This task force was responsible for killing or 
capturing over 3,000 insurgents as they were trying to put in 
IEDs. Basically, turning the job of emplacing of IEDs into a 
suicide mission.
    In Afghanistan, they are standing up a similar Task Force 
ODIN capability. However, it is my understanding that this 
capability is being used differently than it was in Iraq. 
Instead of being used specifically to go after IED emplacers, 
it is being incorporated into the ``big picture'' ISR 
requirement. I would like to hear from our witnesses why we are 
not adopting the lessons we learned and employing Task Force 
ODIN in Afghanistan in the same way that we used it in Iraq. As 
we know, IED attacks are a significant threat to our forces in 
Afghanistan, causing the most civilian and military casualties 
in Afghanistan. Is the approach in Afghanistan a result of the 
tactical decisions being made by the commanders or is it the 
result of the issue of the ``have nots'' mentality and 
signaling from Washington to operate under the ceilings you've 
been given.
    Lastly, I have raised concerns that the emphasis in our 
strategy appears to be on ending the conflict--rather than 
winning. With all of the President's major domestic policy 
announcements, speeches and events, he has a pretty 
straightforward formula he uses to win over public support. 
When it comes to Afghanistan, I wish he would do the same and 
would use words like ``victory'' and ``winning'' more rather 
than ``transition'' and ``redeployment.'' With that said, it is 
not clear to me that this Administration has defined the 
conditions or criteria for transition. I hope to get a better 
understanding today on what ``transition'' exactly means. How 
do you explain the transition to the Afghans, to the enemy, and 
to our forces on the ground? What conditions have to exist and 
what criteria will be used to conclude that a district is ready 
for it to transition to the Afghans for security 
responsibility?
[GRAPHIC] [TIFF OMITTED] T3158.001

[GRAPHIC] [TIFF OMITTED] T3158.002

[GRAPHIC] [TIFF OMITTED] T3158.003

[GRAPHIC] [TIFF OMITTED] T3158.004

[GRAPHIC] [TIFF OMITTED] T3158.005

[GRAPHIC] [TIFF OMITTED] T3158.006

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
